<html>
<title> - TRIBAL TRANSPORTATION: PATHWAYS TO SAFER ROADS IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 114-41]
[From the U.S. Government Publishing Office]







                                                         S. Hrg. 114-41
 
    TRIBAL TRANSPORTATION: PATHWAYS TO SAFER ROADS IN INDIAN COUNTRY

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE
 95-499 PDF                       WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001








       
         


                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2015...................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................    35
Statement of Senator Franken.....................................     4
Statement of Senator Tester......................................     2

                               Witnesses

Black, Michael S., Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................     4
    Prepared statement...........................................     5
Chavarria, Hon. J. Michael, Governor, Santa Clara Pueblo, New 
  Mexico.........................................................     8
    Prepared statement...........................................    10
Kirn, Hon. Rick, Tribal Executive Board Member, Fort Peck 
  Assiniboine and Sioux Tribes...................................    14
    Prepared statement...........................................    16
McOmie, Delbert, Chief Engineer, Wyoming Department of 
  Transportation.................................................    19
    Prepared statement...........................................    20
Smith, John, Director of Transportation, Northern Arapaho and 
  Eastern Shoshone Tribes, Wind River Indian Reservation.........    23
    Prepared statement...........................................    24

                                Appendix

Archambault II, Hon. Dave, Chairman, Standing Rock Sioux Tribe, 
  prepared statement.............................................    41
Chickaloon Village Traditional Council, resolution...............    46
Self-Governance Tribes, prepared statement.......................    44
Vallo, Sr., Hon. Fred S., Governor, Pueblo of Acoma, prepared 
  statement......................................................    42


    TRIBAL TRANSPORTATION: PATHWAYS TO SAFER ROADS IN INDIAN COUNTRY

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:39 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Next we will go to the oversight hearing. We 
are in order for that, too. I call this hearing to order.
    I appreciate the attendance. We are in the middle of six 
roll call votes, but a number of folks have traveled great 
distances to be here and we want to make sure that everyone has 
their voices heard in this important hearing. Moving forward, 
some of us will be moving in and out of the Committee during 
the discussions, so that we can vote and not have to disrupt 
the activity here.
    Before we get started, I want to welcome John Smith from 
the Wind River Reservation in Wyoming, who is better known to 
all of us in Wyoming as Big John. And to Del McOmie, from the 
Wyoming Department of Transportation. Both of these men will be 
testifying today. Together they have worked hard to improve 
road safety on the Wind River Reservation.
    In fact, Big John's work was recognized by the President in 
May of 2014, when he was named a Champion of Change. The White 
House stated that John ``has succeeded in improving the 
reservation's transportation infrastructure, highways and 
bridges, has led the effort to dramatically cut alcohol-
involved crashes and fatalities on the Wind River Reservation. 
He has worked with tribal leaders to toughen tribal laws to 
enhance seat belt compliance and has led the effort to use 
positive messaging to educate drivers of all ages about the 
dangers of drinking and driving.'' So thank you, Mr. Smith, for 
being with us today.
    Big John is accompanied by his Deputy Director, Howard 
Brown, also from the Wind River Indian Reservation.
    As these men so well know, there are many roads and bridges 
on Indian Reservations in desperate need of improvement. In 
some places, heavy rain or snow can wash out a bridge or road, 
cutting off access to schools, jobs and essential services. 
There are many reservation roads which are quite hazardous to 
traverse. According to the Bureau of Indian Affairs, only 17 
percent of the roads are considered to be in acceptable 
condition. The remainder is considered to be in poor and 
unacceptable condition.
    According to the National Congress of American Indians, 
these roads ``are among the most under-developed and unsafe 
road networks in the Nation, even though they are the primary 
means of access throughout these communities.'' The Centers for 
Disease Control lists motor vehicle crashes as the leading 
cause of death for Native American children. Indian infants 
under the age of one year old are eight times more likely to 
die in a vehicle-related crash than other children.
    The Wind River Reservation in my State is no exception. 
Despite significant improvements achieved by the two tribes, 
The Eastern Shoshone and The Northern Arapaho and the State of 
Wyoming, more work needs to be done. According to the Wyoming 
Technology Transfer Center, the Wind River Reservation still 
has the highest percentage of critical crashes when compared to 
the State and local roads. The Wind River Reservation leads the 
State in motor vehicle crashes for people ages 24 to 34.
    Last year, the two tribes, along with the State, did 
complete construction on what is commonly called the 17 Mile 
Road. It was an extremely dangerous road. Crashes and deaths 
occurred on that road all too often. But thanks to the diligent 
efforts of the tribes and the State, those who are here with us 
today, the 17 Mile Road is now much safer.
    So we will hear from our witnesses today how successful 
planning and join efforts, such as what occurred in Wyoming, 
can save lives and improve whole communities.
    At this time, I would like to ask the Vice Chairman if he 
has any comments.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I do, and thank you, Mr. Chairman. Thank 
you for holding this hearing on Pathways to Safer Roads in 
Indian Country. It is an issue that is critical to Indian 
Country. It touches my home State of Montana in a big, big way. 
The fact that we need safe roads in Indian Country is no 
exception.
    Coming from a State as large as Montana, we know a thing or 
two about windshield time. We also know how important these 
roads are to connect commerce, education, health, and the 
industry of our State. Safe and adequate roads and highways are 
critical to public safety, health and education.
    Yet throughout Indian Country, we see the maintenance and 
upkeep of these important highways often neglected or woefully 
underfunded. On some Indian reservations, children spend over 
two hours a day traveling to and from school on roads that are 
not adequate. And this is when there is actually transportation 
that is available.
    Far too often, we hear about pedestrians being struck while 
walking along reservation roads, which lack safe walkways, and 
are some of the most remote and deficient roads in this 
Country. The dire conditions of these roads also lead to 
delayed response times for law enforcement, for medical 
professionals. According to the Federal Highway Administration, 
American Indians have the highest rates of pedestrian injury 
per capita, and this is deaths per capita, of any racial or 
ethnic group in the United States. Motor vehicle crashes are 
the leading cause of death for American Indians and Alaska 
Natives age 1 to 44. And on average, they are responsible for 
killing two American Indians or Native Alaskans every day.
    The data shows it is only getting worse. Over the past 25 
years, almost 6,000 fatal motor vehicle crashes occurred on 
Indian reservation roads, and over 7,000 lives were lost in 
these preventable tragedies. While the number of fatal crashes 
in the United States declined 2.2 percent during this time 
period, the number of fatal motor crashes per year in Indian 
Country raised 52.5 percent. These statistics are extremely 
troubling.
    To begin to reverse this trend, we need to start by passing 
a long-term Highway Bill. The tribes need funding that is 
predictable, that a long-term Highway Bill would provide, and 
would also give them opportunity to implement adequate safety 
plans.
    In addition, we need to make sure the tribal transportation 
programs are adequately funded. This means authorizing current 
funding levels plus inflation at the very least.
    So as we work toward reauthorizing the Highway Bill, MAP-
21, which expires next month, we have the opportunity to not 
only address the safety challenges existing in Indian Country 
but also make critical investments to Indian tribal 
infrastructure. These investments can expand economic 
development opportunities and are crucial to improving the 
quality of life on tribal lands. Importantly, these investments 
are in line with the Federal Government's treaty and trust 
responsibility to American Indians.
    I look forward to working with the members of this 
Committee as well as you, Mr. Chairman. I know you will have a 
say in MAP-21 in your position on EPW.
    But before we move to the witnesses, I want to recognize a 
couple of folks. First, I want to welcome Mr. Rick Kirn, who 
serves on the Tribal Executive Board at the Fort Peck 
Assiniboine and Sioux Tribes in Montana. I want to thank you 
for making the trek out to Washington, D.C., Rick. I look 
forward to hearing from you and all the witnesses today.
    And I would be remiss if I didn't point out that there was 
one Chris Lambert in the crowd. Chris used to work for the 
Honorable Max Baucus from the great State of Montana, and we 
appreciate him working for Indian Country at this point in time 
in his career.
    The Chairman. Thank you very much, Senator Tester. As you 
said, Congress is currently considering reauthorization of the 
Transportation Bill. As we debate this measure, we need solid 
recommendations that build upon tribal successes and provide a 
path for safer roads.
    So I am delighted to have all the witnesses here, but 
before turning to them, I would like to ask Senator Franken if 
he would like to make any comments.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. I would love to go to the testimony. I 
will say a little something at the beginning of my questioning.
    The Chairman. Great. With that, we will start with Mr. 
Michael Black, Director of the Bureau of Indian Affairs, United 
States Department of Interior, Washington, D.C.

   STATEMENT OF MICHAEL S. BLACK, DIRECTOR, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Black. Good afternoon, Chairman Barrasso, Vice Chairman 
Tester, Senator Franken. Thank you for inviting the Department 
of Interior the opportunity to provide testimony at this 
oversight hearing on the topic of Tribal Transportation: 
Pathways to Safer Roads in Indian Country.
    The Department and BIA remain committed to improving and 
adequately maintaining transportation systems to provide 
increased public safety and economic development opportunities 
in Indian communities. The Surface Transportation Assistance 
Act of 1982 established the Indian Reservation Roads Program, 
funded with the highway account of the Highway Trust Fund. 
Since the establishment of the IRR program and its successor as 
part of MAP-21, which is now called the Tribal Transportation, 
or TTP program, the total Federal counts for construction and 
authorization for tribal transportation has exceeded $8.5 
billion. These investments have contributed greatly to the 
improvement of unsafe roads and replacement or rehabilitation 
of deficient bridges on or near reservations throughout Indian 
Country.
    Today the National Tribal Transportation Facility Inventory 
consists of over 160,000 miles of public roads with multiple 
owners, including Indian tribes, the BIA, States, counties, as 
well as other Federal agencies. There remains a great and 
continuing need to improve the transportation systems 
throughout Indian Country.
    The BIA Road Maintenance Program, funded through DOI 
appropriations, has traditionally been responsible for 
maintaining only roads owned by the BIA. Today, of the 148,000 
miles of existing roads in the inventory, the BIA has 
responsibility for approximately 29,500 miles of roads 
designated as BIA system roads.
    The BIA receives approximately $25 million annually for the 
administration of the road maintenance program for those roads. 
The fiscal year 2014 deferred maintenance for BIA roads was 
estimated at $290 million. The Administration's fiscal year 
2016 budget reflects the President's continued commitment to 
addressing the transportation needs of Indian and Alaska Native 
communities. This budget recognizes that supporting safe and 
reliable transportation on public roads, access to and within 
Indian Country, contributes to stronger tribal economies, 
communities and families.
    Highlights of the 2016 budget request for the Tribal 
Transportation Program include: program funding is increased 
from $450 million to $507 million. The increased amount is 
targeted toward new and/or increased setasides. The tribal high 
priority projects program is integrated back into the core 
program as a 7 percent setaside. MAP-21 had authorized this as 
a separate program funded from the general fund.
    Increased the tribal planning setaside from 2 percent to 3 
percent to address additional data collection requirements. 
Increased the tribal bridge setaside from 2 percent to 4 
percent to address the growing backlog of tribal bridge needs. 
The program structure and funding formula under MAP-21 are 
retained.
    The 2016 budget also includes $150 million for 
rehabilitation, construction or reconstruction of large 
nationally significant transportation infrastructure within or 
providing access to Federal or tribal lands. The Department is 
currently working with Congress on the transportation 
reauthorization legislation known as the Grow America Act. As 
Congress moves forward with transportation reauthorization, the 
Department continues to note the most significant impact to TTP 
under the current MAP-21 is implementation of the new formula 
established under MAP-21.
    MAP-21's annual allocation for the TTP is equal to the 
amount for the last year of SAFETEA-LU. However, one 
significant difference is that the current formula makes more 
TTP funding available for distribution to tribal shares. This 
has allowed more funding to be directed toward tribal 
priorities.
    Although more funding is allocated to tribes for their 
priorities, certain programs have decreased shares under MAP-
21. The Bridge program has decreased significantly from a 
separate program of $14 million a year to a setaside program of 
less than $9 million a year. However, the bridge setaside 
proposed in the 2016 budget would address this concern by 
providing approximately $20 million to address critical bridge 
needs in Indian Country.
    The number of BIA bridges which were deficient or 
functionally obsolete and are eligible for replacement or 
rehabilitation is approximately 178 out of 930 total bridges, 
or 19.1 percent of the total. The estimate cost of replacing or 
rehabilitating these bridges is $53.2 million.
    In addition, the requirement to perform safety inspections 
on all 930 tribally-owned bridges has not been adequately 
funded. The estimated cost for inspecting the tribally-owned 
bridges along with the BIA bridges is $3 million every other 
year, or approximately $1.5 million per year.
    The Bureau of Indian Affairs and the Department are 
committed to working with this Committee and others in Congress 
to address the transportation needs in Indian Country through 
our support for the tribal transportation program, road 
maintenance program and other Title 23 U.S.C. funding provided 
for transportation in Indian Country.
    Thank you for the opportunity to present testimony on an 
issue that is an important part of the employment, economic 
infrastructure and road safety for tribes. I will be happy to 
answer any questions you may have.
    [The prepared testimony of Mr. Black follows:]

  Prepared Statement of Michael S. Black, Director, Bureau of Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon Chairman Barrasso, Vice Chairman Tester, and members 
of the Committee. Thank you for inviting the Department of the Interior 
(Department) to provide testimony at this oversight hearing on the 
topic of ``Tribal Transportation: Pathways to Safer Roads in Indian 
Country.'' My name is Mike Black, and I am the Director of the Bureau 
of Indian Affairs (BIA) at the Department.
    The Department and the BIA remain committed to improving and 
adequately maintaining transportation systems to provide increased 
public safety and economic development opportunities in Indian 
communities. Safe roads are important when transporting people in rural 
areas to and from schools, to local hospitals, and for delivering 
emergency services. In addition, transportation networks in American 
Indian and Alaska Native communities are critical for economic 
development in such communities because these transportation networks 
provide access to other economic markets. I appreciate this opportunity 
to share with the Committee some of our accomplishments and also our 
concerns for tribal transportation as we implement MAP-21 and look to 
reauthorization of this important law.
Overview
    The BIA and the Federal Highway Administration within the 
Department of Transportation (FHWA) have been involved in the repair, 
construction and reconstruction of roads on Indian Reservations since 
the 1920s. From 1950 until 1983, Congress appropriated annual 
construction and maintenance funds to the BIA to maintain, repair and 
construct roads on Indian Reservations through the Department of the 
Interior. During this time, approximately $1.2 billion was provided for 
both construction and maintenance of reservation roads.
Tribal Transportation Program
    The Surface Transportation Assistance Act of 1982 established the 
Indian Reservation Roads (IRR) Program funded within the Highway 
Account of the Highway Trust Fund (HTF). Since the establishment of the 
IRR Program and its successor as part of MAP-21, which is now called 
the Tribal Transportation Program (TTP), the total Federal construction 
authorization for Tribal Transportation has exceeded $8.5 billion. The 
TTP is jointly administered by the BIA and the FHWA. These investments 
have contributed greatly to the improvement of unsafe roads and the 
replacement or rehabilitation of deficient bridges on or near 
reservations throughout Indian Country.
    Today, the National Tribal Transportation Facility Inventory 
(NTTFI) consists of over 160,000 miles of public roads with multiple 
owners, including Indian tribes, the BIA, states, and counties, as well 
as other Federal agencies. Of this amount, approximately 12,300 miles 
are planned or proposed roads of varying surface types and uses. There 
remains a great and continuing need to improve the transportation 
systems throughout Indian Country. We believe Congress has viewed this 
as a joint responsibility including not only Federal agencies, but 
state and local governments with transportation investments in or near 
American Indian and Alaska Native communities, as well. Coordination 
among all of these stakeholders is required in order to maximize 
available resources to address transportation needs. Tribes are 
continuing to invest in transportation projects that are the 
responsibility of other public authorities. This creates jobs and 
contributes to the economy of local businesses that provide services 
and materials. Strengthening existing partnerships will continue to 
support the local economy and bring improved infrastructure to 
communities on or near Indian reservations and lands. In March 2014, we 
reported that, tribes have planned transportation projects estimated to 
lead to approximately $270 million worth of investment in non-BIA and 
non-Tribal roads and bridges over the next 3 years. An investment in 
tribal transportation is truly an investment in the local economy and 
safer roads and bridges.
BIA Road Maintenance
    In partnership with the Department of Transportation, the BIA 
currently implements both the TTP program, funded within the Highway 
Account of the HTF, and the BIA Road Maintenance Program, funded by the 
Department of the Interior. The BIA Road Maintenance Program has 
traditionally been responsible for maintaining only roads owned by the 
BIA. Today, of the 148,000 miles of existing roads in the NTTFI, the 
BIA has responsibility for approximately 29,500 miles of roads 
designated as BIA system roads. The BIA receives approximately $25 
million in Tribal Priority Allocation (TPA) funding annually for the 
administration of the road maintenance program for those roads.
    BIA supports self-determination and the empowerment of tribes by 
contracting out a significant portion of the program with tribes. 
Approximately 74 percent of tribes with BIA system roads within their 
reservation boundaries currently carry out the BIA Road Maintenance 
Program through P.L. 93-638 self-determination contracts or agreements 
in lieu of federal employees. Approximately 20,300 miles (70 percent) 
of the BIA system roads are not paved and are, thus, considered 
``inadequate'' from the perspective of the level of service index used 
to assess roads and bridges in the BIA road system. The FY 2014 
deferred maintenance for BIA roads was estimated at $290 million.
FY 2016 Budget Request for Tribal Transportation
    The Administration's FY16 budget reflects the President's continued 
commitment to addressing the transportation needs of Indians and Native 
Americans. This budget recognizes that supporting safe and reliable 
transportation and public road access to and within Indian Country 
contributes to stronger tribal economies, communities and families. 
Highlights of the FY 2016 budget for the Tribal Transportation Program 
include:

  <bullet> Program funding is increased from $450M to $507M. The 
        increased amount is targeted toward new and/or increased set-
        asides.

  <bullet> The Tribal High Priority Projects Program is integrated back 
        into the core program as a 7 percent set-aside. MAP-21 had 
        authorized this as a separate program funded from the General 
        Fund.

  <bullet> Increased the tribal planning set-aside from 2 percent to 3 
        percent to address additional data collection requirements.

  <bullet> Increased the tribal bridge set-aside from 2 percent to 4 
        percent to address the growing backlog of tribal bridge needs.

    The program structure and funding formula under MAP-21 are 
retained. The FY 2016 budget also includes $150 million for 
rehabilitation, construction, or reconstruction of large, nationally-
significant transportation infrastructure within or providing access to 
Federal or Tribal lands.
Reauthorization of MAP-21
    In March 2014, before this Committee over a year ago, we discussed 
the need for jobs, infrastructure and safety of roads in Indian 
communities, and we noted our support for the reauthorization of MAP-
21. The Department is now working with Congress on the transportation 
reauthorization legislation, now known as the GROW AMERICA Act. As 
Congress moves forward with transportation reauthorization, the 
Department continues to note the most significant impact to the TTP 
under the current MAP-21 is the implementation of the new formula 
established under MAP-21. MAP-21's annual allocation for the TTP is 
equal to the amount for the last year of SAFETEA-LU. However, one 
significant difference is that the current MAP-21 formula makes more 
TTP funding available for distribution to tribal shares. The formula 
share of IRR program funds in FY 2011 and 2012 were, respectively, 
$336.7 million and $322.3 million. The formula share of TTP funds in FY 
2013 and FY 2014 were, respectively, $387.6 million and $384.3 million. 
This has allowed more funding to be directed to tribal priorities. The 
new formula also allows for a consistent estimate of allocations in 
advance for future projects and timely allocation to tribes because a 
major portion of the data is known prior to beginning of the fiscal 
year.
    Although more funding is allocated to tribes for their priorities, 
certain programs have decreased shares under MAP-21. The bridge program 
is decreased significantly from a separate program of $14 million per 
year to a set-aside program from within the total amount of less than 
$9 million per year. However, the bridge set-aside proposed in the FY 
2016 budget would address this concern by providing approximately $20 
million to address critical bridge needs in Indian Country.
    In addition, the requirement of the Secretaries of Transportation 
and Interior to perform safety inspections on all 930 tribally-owned 
bridges has not been adequately funded. The number of bridges which are 
deficient or functionally obsolete and are eligible for replacement or 
rehabilitation for BIA bridges alone in the 2013 National Bridge 
Inventory is approximately 178 of 930 (or 19.1 percent of the total). 
The estimated cost of replacing and rehabilitating these bridges is 
$53.2 million. The estimated cost of inspecting the tribally-owned 
bridges along with the BIA is $3.0 million every other year.
Update of 25 CFR 170
    The notice of proposed rulemaking (NPRM) for the update of Title 25 
Code of Federal Regulations Part 170, Tribal Transportation Program, 
was published on December 19, 2014. In January and February of 2015, 6 
consultation meetings were held with tribes on these revised 
regulations. The closing dates for comments for the NPRM, was March 20, 
2015. Over 450 comments were received from interested tribes and the 
public. The BIA and FHWA are currently reviewing the comments that will 
lead to a Fall publication of the final rule.
    This proposed rule would update the Tribal Transportation Program 
regulations to comply with the current surface transportation 
authorization, MAP-21 (as extended), reflect changes in the delivery 
options for the program that have occurred since the regulation was 
published in 2004, remove certain sections that were provided for 
informational purposes only, and make technical corrections.
Conclusion
    The Bureau of Indian Affairs and the Department are committed to 
working with this Committee and others in Congress to address the 
transportation needs in Indian Country through our support for the 
Tribal Transportation Program, the Road Maintenance Program, and other 
Title 23 USC funding provided for transportation in Indian Country.
    Thank you for the opportunity to present testimony on an issue that 
is an important part of the employment, economic infrastructure and 
roads safety for tribes. I will be happy to answer any questions you 
may have.

    The Chairman. Mike, thank you for your testimony. Thank you 
for being here today.
    Next we have the Honorable J. Michael Chavarria.

 STATEMENT OF HON. J. MICHAEL CHAVARRIA, GOVERNOR, SANTA CLARA 
                       PUEBLO, NEW MEXICO

    Mr. Chavarria. Good afternoon and thank you, Chairman 
Barrasso, Vice Chairman Tester, members of the Committee, for 
this opportunity to testify before you regarding Tribal 
Transportation: Pathways to Safer Roads in Indian Country.
    My name is J. Michael Chavarria. I serve as Governor for 
Santa Clara Pueblo in New Mexico. I also serve as Chairman of 
the Eight Northern Indian Pueblos Council, and I am a member of 
the All Pueblo Council of Governors in New Mexico.
    Santa Clara Pueblo has roughly 181 miles of road, of which 
80 percent of that is BIA. It consists mostly of unpaved dirt 
roads, 14 percent State, 2 percent urban and 3 percent county. 
Santa Clara Pueblo experienced a loss of 50 miles of roads in 
the past couple of years, stemming from the 2011 Las Conchas 
fire and post-fire impacts from flooding, which was an enormous 
loss to the Pueblo's tribal transportation infrastructure.
    Notably, the main road, State Road 30, is one of the two 
access roads to Los Alamos National Laboratory, our neighbor 
immediately to the south. This road, which has national 
security importance, passes through the heart of our 
reservation. With a traffic count of 14,000 vehicles a day 
volume on State Road 30 is a driving force behind Santa Clara's 
roads and safety plans. As our Pueblo grows, with a new housing 
development on the south side of the road, in addition to a new 
fire station, an increasing number of Santa Clara people must 
cross the road or attempt to merge into that road. During peak 
traffic flows, it is extremely difficult for vehicles to safely 
enter the traffic stream from the intersecting streets. Drivers 
often do not obey signage, such as speed limits, and 
pedestrians cannot even pass safely at the crosswalk. There are 
no sidewalks or traffic lights on State Road 30.
    Our transportation plans include construction of a frontage 
road and protected crossings, but our attempts to engage the 
State of New Mexico to improve the safety of these roads have 
fallen on deaf ears. Our frustrations about working with the 
State are not unusual within Indian Country, as I have heard 
from many other tribes about their States paying less attention 
to the State roads serving Native American communities. 
Notably, one of the agreements granted by the BIA to States or 
other jurisdictions for roads over Indian lands requires that 
the facilities on them remain maintained and often contain 
language granting the BIA to revoke the right of way if 
maintenance is not adequate.
    Congress could improve oversight and maintenance and safety 
of roads serving Indian communities by creating a process 
whereby tribes themselves could initiate a review to determine 
if action to induce proper maintenance is required. There are 
many other things that can be done at the Congressional level 
to support greater public safety on Indian Country roads, 
including authorizing tribes to directly receive DOT funds, 
rather than having those funds pass through the State. Support 
legislation that would create a DOT, a tribal self-governance 
program, like at the BIA and IHS levels. This simplifies grant 
initiating requirements and significantly streamline tribal 
efforts to obtain and administer tribal funds or transportation 
funds. Establish a 2 percent tribal setaside in MAP-21 for the 
Highway Safety Improvement Program. And for the TIGER program, 
to enable tribes to better compete in these comparative grant 
programs.
    This change is cost-neutral, but would open up an important 
stream of funding for tribal safety. Section 1317 of MAP-21 
contains a categorical exclusion from environmental review for 
any transportation project receiving less than $5 million in 
Federal funds. The BIA has asserted that this provision only 
applies to the Department of Transportation, which we think is 
both an unfair reading of Section 1317 and a willful disregard 
of Congressional intent. It should apply to BIA as well.
    Move the tribal bridge program back into the Highway Trust 
Fund, as it was under SAFETEA-LU, rather than a tribal 
transportation program. This would ensure better funding. 
Ensure that tribal governments are eligible to apply for all 
grant programs under the DOT, under the same criteria as other 
governments. Streamline the process for applying for emergency 
relief for federally-owned roads. Funding for roads repair when 
disaster occurs by allowing tribes to go directly to the 
Federal Highway Administration, such as the Stafford Act 
Amendments, to allow tribes to seek direct disaster funding 
from the President of the United States.
    Again, I would like to thank you, on behalf of the Pueblo 
of Santa Clara, for allowing me this opportunity to testify 
before this Committee. I have also submitted a written 
testimony for the record. Again, Mr. Chairman, Mr. Vice 
Chairman and the rest of the Committee, [phrase in native 
tongue.]
    [The prepared statement of Mr. Chavarria follows:]

Prepared Statement of Hon. J. Michael Chavarria, Governor, Santa Clara 
                           Pueblo, New Mexico
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Tester. [Presiding] Thank you, Governor.
    Next we have from the Fort Peck Assiniboine and Sioux 
Tribe, Rick Kirn. Rick?

  STATEMENT OF HON. RICK KIRN, TRIBAL EXECUTIVE BOARD MEMBER, 
             FORT PECK ASSINIBOINE AND SIOUX TRIBES

    Mr. Kirn. Thank you, Vice Chairman Tester. I would like to 
thank the Committee members who are not here right now. Thank 
you for inviting the Assiniboine and Sioux Tribes to present 
testimony concerning Tribal Transportation: Pathways to Safer 
Roads in Indian Country.
    My name is Rick Kirn, and I serve as a member of the Fort 
Peck Tribal Executive Board.
    Today's hearing sheds light on the conditions of roads in 
Indian Country. Transportation infrastructure in Indian Country 
is unsafe, especially on large, rural reservations like the 
Fort Peck Reservation. We have hundreds of miles of roads, few 
first responders and limited trauma centers in the event of a 
serious motor vehicle crash. These factors contribute to the 
fact that motor vehicle crashes are a leading cause of injury 
and death among Native Americans.
    If I had to identify the biggest problem facing the Fort 
Peck Tribe regarding road safety, it would be lack of 
resources, funding for needed road safety improvements and 
funding for education. Education is critical if we are to raise 
the next generation of drivers to always buckle up, to properly 
secure children in child safety seats and not drink and drive. 
We are doing our share by establishing and implementing a 
safety management plan working with the Montana Department of 
Transportation to implement a Safe On All Roads, SOAR, program, 
and make road improvements to save lives.
    We live in a 2.1 million acre reservation in northeastern 
Montana, just north and west of the Bakken and Three Forks 
formations. We saw increased truck traffic across Highway 2 and 
our BIA-owned and tribally-owned roads. These heavy trucks 
damaged the road beds, and they are in need of repair and 
construction. We lack the resources to undertake routine road 
maintenance on our roads. Poor maintenance shortens the useful 
life of all roads on our reservation, regardless of which 
jurisdiction owns them
    Poor roads and behavioral issues contribute to the deadly 
statistics that this Committee and every member of Congress 
should be alarmed by. According to the Centers for Disease 
Control, two Native Americans are killed every day in motor 
vehicle crashes. Native American infants have the highest 
mortality rate. The States with the highest fatality figures 
are Wyoming, Montana, the Dakotas and Arizona.
    This Committee understands the importance of infrastructure 
in Indian Country. That is why this Committee has championed 
the reauthorization of NAHASDA and promoted irrigation projects 
and the completion of rural water systems. This Committee 
understands the importance of infrastructure as the foundation 
for economic development and healthier communities. 
Transportation infrastructure is also a prerequisite for 
investment, and it is at its heart a job-creating catalyst for 
our community, which suffers from high unemployment and 
poverty.
    That is why the Fort Peck Tribes endorse the Tribal 
Transportation Unity Act Amendments to MAP-21 and ask this 
Committee to champion these tribal amendments in the next long-
term Highway Bill. When Congress finds a bipartisan, bicameral 
solution to shore up the Highway Trust Fund, we ask that it 
also address tribal transportation needs in the next Highway 
Bill. Congress can improve road safety in Indian Country in the 
next six-year reauthorization bill by establishing parity 
between Indian tribes and the States.
    Our infrastructure is in poor and fair shape. Congress can 
improve road safety in Indian Country through the following 
measures, some of which are no-cost amendments to current law. 
First, make Indian tribes directly eligible for every USDOT 
discretionary and competitive grant. Second, establish a 2 
percent setaside for tribes in the Highway Safety Improvement 
Program. Third, increase the national highway traffic safety 
program setaside from 2 percent to 3.5 percent.
    Finally, create a 3 percent setaside for tribes in the 
Transportation Alternative Program. This program has benefited 
the Fort Peck Tribes by funding pedestrian and bicycle paths 
that separate pedestrians from roads, projects it could not 
otherwise afford. The Transportation Alternatives Program saves 
lives in Indian Country and promotes walking and biking for 
healthier communities.
    Thank you for the opportunity to present this testimony on 
behalf of the Fort Peck Tribes.
    [The prepared statement of Mr. Kirn follows:]

 Prepared Statement of Hon. Rick Kirn, Tribal Executive Board Member, 
                 Fort Peck Assiniboine and Sioux Tribes
I. Indian Country Roads Are Not Safe Roads
    Chairman Barrasso, Vice Chairman Tester and members of the 
Committee, thank you for affording the Assiniboine and Sioux Tribes of 
the Fort Peck Reservation the opportunity to present testimony 
concerning ``Tribal Transportation: Pathways to Safer Roads in Indian 
Country.'' My name is Rick Kirn and I serve as a member of the Fort 
Peck Tribal Executive Board. Chairman A.T. Stafne and my fellow Tribal 
Executive Board members send their warm regards.
    Roads in Indian country are inherently unsafe. According to the 
Centers for Disease Control and Prevention (CDC), motor vehicle crashes 
are the leading cause of unintentional injury and death for American 
Indians/Alaska Natives ages 1-44. Among infants less than one year of 
age, American Indians/Alaska Natives have eight times the rate of 
motor-vehicle traffic deaths than that of non-hispanic whites. Among 
our teenage youth, motor vehicle crashes are the leading cause of 
death. We must do better.
    According to the National Highway Traffic Safety Administration 
(NHTSA), in 2012, there were 33,000 roadway fatalities in the United 
States. Rural areas accounted for 54 percent of the fatalities although 
only 19 percent of the U.S. population lived in rural areas. Indian 
country is fairing even worse.
    According to the CDC, two Native Americans are killed every day in 
motor vehicle crashes. From 2004-2010, the five states with the highest 
motor vehicle-related death rate among Native Americans were Wyoming, 
South Dakota, Montana, North Dakota and Arizona. The death rate in 
these states ranged from three to five times above the national 
average.
    According to MDT, Native Americans make up roughly 6 percent of 
Montana's one million citizens, yet in 2009 Native Americans accounted 
for 15.4 percent of the State's fatalities. From 2000 to 2009, Native 
Americans comprised from 11.8 to 20.1 percent of the State's motor 
vehicle fatalities. MDT further found that nearly two-thirds of these 
fatalities were alcohol-related. From 2005-2010, safety belt use for 
Indian occupant fatalities was less than 10 percent. Additional 
resources for safety improvements and education can reduce these 
statistics.
    We have roughly 1,500 miles of roads on the Fort Peck Reservation, 
of which 375 miles are BIA system and Tribally-owned roads. Of our 211 
miles of BIA-owned roads, over half are gravel and dirt routes. Thus, 
the majority of our transportation infrastructure is outdated and in 
need of upgrade (paving) while the rest of the infrastructure is owned 
and maintained by the State and county governments which often do not 
maintain and reconstruct their roads on the Reservation with the same 
diligence as they do elsewhere in the State. When overstressed and 
under-maintained, our infrastructure gives way, creating safety hazards 
for our members, residents and visitors.
    The Fort Peck Reservation lies within the western part of the 
Williston Basin, which includes many oil producing formations, 
including the Bakken and Three Forks. Fracking has brought about 
unprecedented oil development in the Bakken and Three Forks immediately 
adjacent to our Reservation in western North Dakota and eastern 
Montana. Rail, truck and motor vehicle traffic increased dramatically 
across the Reservation as oil, frac sand and pipe, together with people 
move in and out of the Bakken.
    While oil prices have slumped and oil exploration has slowed 
somewhat, as the closest neighbor to this development, our substandard 
infrastructure--particularly our roads-have come under significant 
stress, without any accompanying income from this development or 
increased appropriations from Congress to maintain roads in a good 
state of repair.
    Well designed and well maintained roads should be the norm, but 
this is not so in Indian country. Throughout Indian country and on our 
reservation, transportation barriers continue to exist. These barriers 
separate native communities from the rest of society, from jobs, health 
facilities, retail outlets, colleges and community centers. When we 
lack all-season routes, as we do on our reservation, law enforcement 
and other first responders struggle to reach people in need. Children 
cannot get to school and parents cannot get to work. This is especially 
true during our harsh winters when ice and snow accumulate on the roads 
making them unsafe. Communities are shut off from one another. This is 
a safety issue which persists each year, largely due to lack of funds.
    In short, road safety is a massive problem at Fort Peck and 
throughout Indian country. We cannot tackle this problem without 
additional federal resources. The United States has a unique trust 
responsibility to protect Indian tribes and their members. These 
persistent and grim statistics reveal that the United States has not 
lived up to its responsibility to the Indian nations and our members 
when it comes to transportation infrastructure and roadway safety.
II. Indian Tribes Can Make a Positive Difference to Improveroad Safety 
        When Provided the Resources
    We are committed to reducing the number of deaths and serious 
injuries and improving the overall safety of the Reservation's 
transportation system. The Fort Peck Tribes have had a Safety 
Management Plan in place since 2008. We worked with the Montana 
Department of Transportation (MDT) to develop a Safe On All Roads 
(SOAR) program, provided Tribal law enforcement officers with a Cisco 
electronic crash records system to enter all crash reports in a 
standardized way for better reporting of crashes, established a DUI and 
Injury Prevention Committee that meets on a monthly basis, entered into 
a cross-deputization agreement with the State of Montana, and initiated 
safety checkpoints staffed by Tribal Police, City Police and County 
Sheriffs Offices. We have enacted ordinances to make not wearing a seat 
belt a primary offense and to ban domestic animals on highway rights of 
way.
    Through MDT's Comprehensive Highway Safety Program (CHSP), an 
annual Tribal Transportation Safety Summit was established in Montana 
to provide tribal officials an opportunity to share success stories as 
well as identify safety issues and hurdles. Engineering/planning and 
education were identified by tribes as the highest area of need. This 
is consistent with MDT's finding that the issues of unbelted drivers 
and impaired driving among Native Americans remain a problem. According 
to MDT, between 2007 and 2011, in approximately 76 percent (120 of 157) 
of vehicle-related crashes, the victim was unbelted. On Fort Peck, we 
also identified overweight and oversized trucks as an emerging safety 
issue tied to the Bakken and Three Forks development. With more law 
enforcement funding, we could patrol our roads more consistently and 
keep them safer for all users.
    We have used our ``Tribal shares'' of Tribal Transportation funds 
to reconstruct existing routes, complete overlay-chip seal projects, 
milled, leveled and overlayed community streets, and undertake the 
phased construction of the 30 mile Wolf Point-Wiota project to improve 
road conditions and safety on the Reservation. Well lit signage, guard 
rails, rumble strips, wider shoulders and striping are cost-effective 
measures to improve road safety.
    We are also fortunate to have received 2 percent Tribal 
Transportation Program Safety grants over the last few years to make 
needed safety improvements on our reservation that we would not 
otherwise be able to undertake. In 2013, we used safety grant funding 
to restripe 26 miles of BIA routes, made road improvements from Box 
Elder to Blair, issued Public Service Announcements (PSAs) and updated 
our Tribal Highway Safety Plan. This year, we will use TTP Safety funds 
to pave the Poplar Airport Access Road for emergency vehicles, purchase 
a radar speed display trailer, purchase intoximeters for the Tribal Law 
and Justice Program and undertake an education promotion ``Arrive Alive 
Tour.''
    As a competitive grant program, however, the $8.5 million available 
in FY 2014 for Tribal Safety Grants is simply inadequate and covers 
only a tiny fraction of the transportation safety needs of the Nation's 
566 federally-recognized Indian tribes. Fort Peck alone could utilize 
the entire safety grant program and still need more funding.
    While we are making road safety a high priority, we simply lack the 
resources to address the problem comprehensively. The situations I 
mentioned earlier demonstrate that more needs to be done.
III. Tribes Require Parity With States in the Next Long-Term highway 
        Reauthorization Bill and We Call on the Senate Indian Affairs 
        Committee to Advocate for Tribes
    Tribes require parity with State Departments of Transportation if 
we are to addressserious safety issues on our reservations. The 
reduction in federal appropriations to the Tribal Transportation 
Program and the loss of discretionary grant programs, such as the 
Public Lands Highway Discretionary Grant Program under MAP-21, hinder 
the ability of Indian tribes to address ongoing transportation safety 
concerns.
    The primary sources of funding to undertake safety improvements as 
well as maintain and repair our reservation routes to improve safety 
are the funds we receive from the Tribal Transportation Program, under 
the Federal Lands Highways Program, and the BIA Road Maintenance 
Program funds. These programs have not received required funding 
increases nor kept pace with inflation and thereby have undermined our 
ability to properly maintain our existing transportation inventory.
    To rectify the economic and physical barriers that hinder so many 
aspects of reservation life, we urge the Indian Affairs Committee to 
introduce an Indian highway bill to provide financial predictability 
and certainty for Indian transportation and safety programs need. We 
ask the Committee to advocate for tribal parity with the States in the 
area of transportation, transit, road maintenance and highway safety. 
Tribal transportation infrastructure needs must be addressed in the 
next long-term, bipartisan and bicameral highway reauthorization bill.
    To empower tribes and promote tribal self-determination in the area 
of transportation infrastructure, transit and highway safety, Congress 
should adopt the recommendations of the Tribal Transportation Unity 
Caucus (TTUC), a broad coalition of Indian tribes from across the 
country. The TTUC proposed a legislative package of amendments to MAP-
21 that provide equitable funding increases and program improvements to 
address the safety and engineering deficiencies that are present 
throughout Indian country.
    We strongly endorse the Tribal Transportation Unity Act (TTUA) 
amendments as have scores of other tribes as well as tribal 
organizations such as the National Congress of American Indians (NCAI), 
the Intertribal Transportation Association (ITA) and the Affiliated 
Tribes of the Northwest Region (ATNI). We ask that the Tribal 
Transportation Provisions Proposed for Inclusion in the Highway 
Reauthorization legislation by the TTUC be made part of this hearings 
record.
    Transportation safety is one of many elements which Congress should 
address in a comprehensive, long-term highway reauthorization of MAP-
21. This Committee has long understood that infrastructure, including 
roads, water and wastewater systems, utilities, telecommunications, law 
enforcement, schools and health facilities are the building blocks for 
community stability and economic development.
    We ask this Committee to provide Indian tribes with greater access 
to existing highway safety programs to reduce needless deaths among the 
Nation's First Americans. As noted in the Tribal Transportation Unity 
Act amendments, Congress can do so by:

        1. establishing a 2 percent set-aside for tribes in the Highway 
        Safety Improvement Program (HSIP);

        2. increasing NHTSA's Tribal Safety Program set-aside to 3.5 
        percent (from 2 percent);

        3. create a 3 percent set-aside for tribes in the 
        Transportation Alternatives (TA) Program; and

        4. make tribes direct eligible recipients for all USDOT 
        discretionary grants.

    Many motor vehicle crashes and motor vehicle injuries to Native 
Americans on reservations simply go unreported. Tribes need more 
funding to standardize data gathering and reporting of motor vehicle 
crashes which can be shared with State and Federal agencies. Only 
through better crash data can tribes receive additional federal and 
State highway safety funds.
    With recurring and increased Tribal Transportation Program and 
safety funding, we can:

  <bullet> increase child safety seat use among Native American youth,

  <bullet> increase seat belt use among adults and teen drivers,

  <bullet> address alcohol-impaired driving through greater traffic 
        enforcement, sobrietycheckpoints,

  <bullet> implement multi-faceted community-based approaches to 
        alcohol misuse and DUIprevention, and

  <bullet> undertake engineered road improvements that make our 
        transportation systemssafer.

IV. Conclusion
    We appreciate the Committee's concern regarding road safety in 
Indian country and welook forward to working with you to see that 
proper investments are made in transportation infrastructure to make 
our communities safer. It will take time and resources to remedy the 
poor state of roads in Indian country and improve highway safety for 
Native Americans, but Indian tribes are in the best position to partner 
with local, State and Federal agencies to reverse the appalling 
situation we now endure and make reservation transportation systems 
safer so that our members can lead healthier lives and our communities 
can prosper. Greater access to existing funding sources and increased 
appropriations overall will help tribes build better relationships with 
State DOTs, metropolitan and rural planning organizations, local 
governments and federal agencies.
    Transportation infrastructure costs money to build and, equally 
important, to maintain. It is a price Congress must be willing to pay. 
We are gratified to see legislation from this Committee that recognizes 
the importance of investing in tribal infrastructure, whether it 
concerns irrigation systems, housing, or rural water projects. We ask 
that you do the same for transportation infrastructure.
    I thank the Committee for the opportunity to present this 
testimony.

    The Chairman. [Presiding.] Thank you very much, Mr. Kirn. I 
appreciate your being here.
    And now Mr. Delbert McOmie, with whom I worked closely when 
I was on the Wyoming State Senate on the transportation 
committee. He is the Chief Engineer of the Wyoming Department 
of Transportation. At your convenience, please share your 
thoughts.

STATEMENT OF DELBERT McOMIE, CHIEF ENGINEER, WYOMING DEPARTMENT 
                       OF TRANSPORTATION

    Mr. McOmie. Thank you, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee. I am Del McOmie, with the 
Wyoming Department of Transportation. I thank you for the 
opportunity to offer WYDOT's perspective on the vital 
transportation matter of transportation safety on the Wind 
River Reservation.
    At the outset, let me emphasize that States and political 
subdivisions such as counties can and do have jurisdiction over 
some roads within the reservation boundaries. So improving the 
transportation system on and near the tribal reservation 
depends on effective planning and participation amongst the 
State, tribe and political subdivisions, as well as citizens 
and stakeholders.
    Also, to improve the State and tribal transportation 
safety, one should not focus solely on projects funded from the 
safety category. Safety is part of virtually everything that we 
do at WYDOT. For example, a road resurfacing and widening 
project provides safety benefits by eliminating potholes and 
improving shoulders. It could also include installing guardrail 
and rumble strips. But the project might be funded from the 
Surface Transportation Program under Title 23. A project that 
does not include any elements other than adding a safety 
feature would likely be funded out of the Highway Safety 
Improvement Program and would be referred to as a safety 
project.
    My written statement describes a few projects and actions 
WYDOT has undertaken, working closely with the tribal 
stakeholders, to improve transportation and transportation 
safety. For example, I will highlight just a few. First, we are 
pleased to advise that under MAP-21, the proportion of WYDOT 
funding for construction that is invested on routes serving the 
Wind River Reservation exceeds the ratio of enrolled tribal 
members to Wyoming's overall population.
    Second, Mr. Chairman, as you know, the most notable tribal 
transportation achievement in Wyoming in recent years has been 
the completion of the 17 Mile Road project on the Wind River 
Reservation. That $45 million project was undertaken with 
tribal funds, State funds, Federal appropriations to WYDOT, 
Fremont County funds and a TIGER discretionary grant from the 
USDOT to the Northern Arapaho and Eastern Shoshone tribes. It 
has been a 20-year effort. That road has been transformed from 
a narrow, sharp-cornered road with irrigation structures near 
the roadway into a modern, two-lane highway with wide 
shoulders.
    Safety was critically important in deciding what to do with 
the project. In addition to adding eight-foot shoulders and 
eliminating hairpin corners, roadway lighting was added at 
major intersections and irrigation systems were moved from open 
ditches to buried pipes. Rumble strips are currently being 
added to further improve safety.
    Third, WYDOT has used funds under NHTSA programs for 
transportation safety education in the tribal community. Safety 
summits, the advertising, using posters, billboards and radio 
spots have stressed wearing seatbelts, using child restraints 
and not driving while impaired. Over the last decade, we have 
seen reduced fatal crashes, fatalities and injuries. For 
example, in 2005 there were 8 driver fatalities in Fremont 
County involving a positive alcohol or drug test. In 2014, 
there were none.
    The combination of efforts of road and behavioral 
investments are paying off. On the eastern section of the 17 
Mile Road, in the three-year period preceding reconstruction 
and behavioral messaging, there were 65 total crashes with 63 
injuries and 4 fatalities. In the three years following the 
reconstruction and the commencement of the behavioral program, 
total crashes fell to 18 with 10 injuries and 1 fatality. This 
is a drop of 70 percent or more for crashes, injuries and for 
fatalities from the pre-construction, to the pre-messaging 
period.
    Fourth, transit investment has also served to improve 
safety as well as address jobs, medical treatment and other 
vital functions. These improvements have taken pedestrians off 
the roadway and helped to reduce vehicle pedestrian accidents.
    Before closing, let me offer a few thoughts on a framework 
that can help State DOTs and tribal nations continue to achieve 
positive results. Enacting a multi-year surface transportation 
bill will help. Planning for projects on or near the 
reservation takes time and can best be undertaken in the 
context of a multi-year legislation.
    Also, Congress and Federal agencies should provide 
flexibility to the States and to the tribes, and also look for 
opportunities to streamline and simplify programs and project 
delivery. If we can reduce the expense of the program 
administration, more funds can be applied to the actual project 
and programs.
    In conclusion, States are available to work with the tribal 
governments to deliver transportation improvements, including 
safety. That concludes my statement, Mr. Chairman, and I look 
forward to any questions the Committee may have.
    [The prepared statement of Mr. McOmie follows:]

     Prepared Statement of Delbert McOmie, Chief Engineer, Wyoming 
                      Department of Transportation
    Chairman Barrasso, Ranking Member Tester, and Members of the 
Committee:
    I am Del McOmie, Chief Engineer of the Wyoming Department of 
Transportation (WYDOT). Thank you for the opportunity to appear before 
the Committee and offer WYDOT's perspective on the vital matter of 
tribal transportation safety.
    In my statement today, I will share with the Committee information 
about how the efforts of our state, under the federal surface 
transportation programs, can be coordinated effectively with the 
transportation plans and programs of the tribes to bring about improved 
transportation and transportation safety for tribal members, both on 
and near reservations.
    At the outset, let me emphasize that states and political 
subdivisions, such as counties, can and do have jurisdiction over and 
responsibility for some roads within the boundaries of a reservation. 
So, improving the transportation system in and near a tribal 
reservation depends on effective communication, planning, and 
participation among the state, the tribe, and political subdivisions, 
as well as citizens and stakeholders.
    This common sense imperative for communication among the interested 
parties is reinforced by various provisions of the federal surface 
transportation program. The basic federal transportation planning 
statutes for states, 23 U.S.C. 135 and 49 U.S.C. 5304, include a number 
of provisions requiring a state to consult with tribes in undertaking 
transportation planning, especially with respect to plans for areas of 
the state under jurisdiction of a tribal government. Further, pursuant 
to 23 U.S.C. 148, the state's Strategic Highway Safety Plan must be 
developed in consultation with tribal stakeholders.
    Before turning to some examples of how we at WYDOT have been 
working with the Northern Arapahoe and Eastern Shoshone tribes to 
improve transportation and transportation safety on the Wind River 
Reservation, I think it is important to point out that safety is an 
integral part of virtually everything we do at WYDOT. Every road 
project makes a contribution to safety, even if for programmatic 
purposes, it is not classified as a ``safety project.'' For example, a 
road resurfacing and widening project provides safety benefits by 
eliminating potholes, and it could also include installation of guard 
rails and rumble strips, but the project might be funded from the 
``surface transportation program'' category in Title 23. A project that 
does not include any elements other than adding guard rails likely 
would be funded out of the ``highway safety improvement program'' 
category and would be generally referred to as a ``safety project.'' In 
short, when thinking about ways to improve transportation safety, one 
should not focus solely on projects funded from a ``safety'' category.
Recent WYDOT Investments Have Complemented Tribal Efforts and 
        Improved Transportation Safety in Wyoming's Tribal Areas
    Now, let me briefly describe a few of the efforts WYDOT has made, 
working closely with tribal stakeholders, to improve transportation and 
transportation safety. The Department is working diligently to improve 
transportation on the Wind River Reservation. Under the Moving Ahead 
for Progress in the 21st Century Act, MAP-21, the proportion of WYDOT 
funding for construction that is invested on routes serving the 
Reservation exceeds the ratio of enrolled tribal members to Wyoming's 
overall population.
    17 Mile Road. As you know, Mr. Chairman, the most notable tribal 
transportation achievement in Wyoming in recent years has been the 
completion of the 17 Mile Road project. That $45 million project was 
undertaken with tribal funds, state funds, federal apportionments to 
WYDOT, Fremont County funds, and a TIGER discretionary grant from USDOT 
to the Northern Arapahoe and Eastern Shoshone tribes. It was a 20-year 
effort to design and complete this project. But that road, which is on 
and serves the Wind River Reservation, has been transformed from a 
narrow, sharp-angle road with irrigation structures near the roadway 
into a modern two-lane highway with ample shoulders. The reconstruction 
of 17 Mile Road has been a long-term cooperative effort with financial 
and personnel resources from the tribes, Fremont County, WYDOT, and the 
Central Federal Lands Division of the Federal Highway Administration. 
The project is viewed across the country as a model for government and 
community partnerships.
    Safety was a critically important factor in the detailed planning 
for and delivery of the 17 Mile Road project. In addition to adding 8-
foot shoulders and eliminating hairpin corners, roadway lighting was 
added at major intersections and irrigation systems were moved from 
open ditches to buried pipes. Rumble strips are currently being added 
to improve safety further.
    WYDOT has continued to partner with the Wind River tribes on 
maintenance as well. The Department has provided transportation 
training funds for classes for the tribes to help them better maintain 
their roads. District personnel have also trained tribal members to 
perform chip sealing, which the tribes will now also undertake. The 
tribes purchased a Department striper, which WYDOT district personnel 
have taught tribal workers to use to maintain striping. The tribes have 
also bought used dump trucks and snowplowing equipment from the 
Department at nominal cost.
Additional Highway Investments
    Other WYDOT projects are planned or underway to improve roads 
serving the Reservation. In 2014, a project on Wyoming Highway 132 
north of Ethete overlaid some 8 miles of the highway. Work on 3.3 miles 
of Wyoming Highway 789 south of Riverton is underway to widen the road. 
Another project on Wyoming Highway 132 south of Ethete is currently 
being designed. This project will straighten hairpin turns and widen 
shoulders. As part of the work, a separated bicycle and pedestrian path 
will also be built.
    Additional initiatives to improve transportation on the Reservation 
and make it safer are also underway. A highway safety study of 13 state 
routes on the Wind River Reservation, for instance, is currently being 
done. This study, involving both WYDOT and University of Wyoming Civil 
Engineering Department personnel, will take an integrated approach 
involving in-depth review of crash data, speed limit studies, and 
capacity analysis. Benefit-cost analysis will then be applied to the 
findings, and recommendations for programming improvements will be 
made. These will then be programmed as funding allows. A High Risk 
Rural Roads project to install signs on the Reservation is also set for 
this year.
    Transit. Transit investments have also served to improve safety as 
well as access to jobs, medical treatment, and other vital functions. 
WYDOT has invested rural transit operating and other funds to improve 
transit within the Reservation and to connect the Reservation and 
nearby cities and towns. Medical trips for kidney dialysis are the 
current focus, with some route service occurring. These activities will 
expand depending upon funding and user needs.
    Highway Safety Behavioral Program Investments. WYDOT has used 
federal funds under NHTSA programs for education in Fremont County, 
including the tribal community, as well as in other rural counties. 
Safety summits and advertising using posters, billboards, and radio 
spots have been used to stress such important safety practices as 
wearing seat belts, using child restraints, and not driving while 
impaired. Tribal laws have also been changed. The Reservation has a new 
DUI law, a new mandatory seat belt law, and enforcement efforts have 
been enhanced. Over the last decade or so, we have seen reductions in 
fatal crashes, fatalities, and incapacitating injuries. In fact, there 
has been a dramatic reduction in all injuries. In 2005 there were 8 
driver fatalities in Fremont County involving a positive alcohol or 
drug test. In 2014 there were zero fatalities, and there were only 4 
total in the 4 years from 2011 to 2014. Fatalities overall have fallen 
from 24 in 2006 to 4 in 2013. Fatal crashes in which seatbelts were not 
used fell from 17 in 2008 to 3 in 2013.
    We have consulted with tribal officials in structuring the delivery 
of programs supported with NHTSA funds from the Highway Trust Fund. 
While we are always working to improve safety further, we are 
encouraged to see real progress.
    The combined efforts of road improvements and behavioral 
investments are paying off. On the eastern section of 17 Mile Road, in 
the three-year period preceding reconstruction and behavioral 
messaging, there were 65 total crashes with 63 injuries and 4 
fatalities. After reconstruction and commencement of the behavioral 
program, for the three years from 2009 to 2012, total crashes fell to 
18 with 10 injuries and 1 fatality. These figures represent a drop of 
70 percent or more for crashes, injuries, and fatalities from the pre-
construction, pre-message period.
Further Improvement
    Looking ahead, we at WYDOT are eager to achieve further improvement 
in transportation and transportation safety, including by working with 
our tribal colleagues.
    I am not here as an expert on the tribal transportation program 
itself, but, before closing, I will offer a few thoughts on a framework 
that can continue helping state DOTs and tribal nations achieve 
positive results.
    Enacting a multi-year surface transportation bill will help in this 
area as well as in other aspects of surface transportation. Planning 
for projects on and near a reservation takes time. We think WYDOT and 
our tribal and local government colleagues in Wyoming do it well and 
efficiently, but planning for investments takes years to reach fruition 
and can best be undertaken in the context of multi-year legislation.
    Also, I would encourage Congress and the federal agencies to 
provide increased flexibility for states and tribes and to also look 
for opportunities to streamline and simplify programs and project 
delivery. If we can keep down the expenses of program administration, a 
higher portion of available funds, whether tribal program funds or 
funds apportioned to states, can be applied to actual projects and 
programs.
    In summary, my main point today is that the current federal surface 
transportation programs do enable a state to work with tribal 
governments to deliver transportation improvements, including safety 
improvements. As the Congress works to improve federal surface 
transportation programs, including the program of apportionments to 
states and the program for tribes, it should build on, and not detract 
from, the good that is in the current framework.
    That concludes my statement. Thanks again for the opportunity to 
appear before the Committee. I'll be happy to respond to questions the 
Committee may have.

    The Chairman. Thanks, Mr. McOmie.
    Next is John Smith, who is the Director, Transportation 
Department, Eastern Shoshone and Northern Arapaho Tribes of the 
Wind River Indian Reservation, Fort Washakie, Wyoming.
    Again, congratulations on being recognized by President 
Obama at the White House last year and being named a Champion 
of Change. With that, I invite you to please give your 
testimony.

             STATEMENT OF JOHN SMITH, DIRECTOR OF 
 TRANSPORTATION, NORTHERN ARAPAHO AND EASTERN SHOSHONE TRIBES, 
                 WIND RIVER INDIAN RESERVATION

    Mr. Smith. Thank you, Mr. Chairman, Vice Chairman Tester 
and the rest of the Senate Committee on Indian Affairs, for 
listening to our presentation along with the other presenters 
who presented before me. We all convene on several different 
issues, but we realize that safety is one of the major projects 
and one of the focuses that we endear together.
    I will now have my colleagues put up a chart that shows 
some of the improvement from 2008 to 2009, and ask them to, we 
have an error that might be a little confusing, and that should 
be 100,000 population. The actual figure for the total is 
around 20,000 instead of 19,000. The chart is misleading. I 
apologize for that.
    But the other chart I also have is the ones that talk about 
the motor crash and vehicle deaths in Indian Country as stated 
by Council Member Kirn, that two Indian people die in one day, 
every day in America. Why is this? Simply put, bad roads and 
more often than not, unpaved roads. We do have narrow roads, we 
have sharp curves, no median, no shoulders and we are asking 
for trouble in the design phase. Only 7 percent of the roads 
owned by tribes are paved, and the remaining 93 percent are 
gravel, earth or primitive. Only 26 percent of the BIA roads 
are paved.
    My testimony describes a terrible situation on Cheyenne 
River Sioux Indian Reservation, where a school bus has to go 
through two hills, narrow roads and the bus driver has the 
children exit the road, he drives up to the top of the road and 
they get on one hill, and they go a little ways, they have to 
climb another hill. And when the weather is in a critical 
condition, they dump the supplies for the school off in a near 
town called Faith. And the school has to go bring their own 
supplies up to the school children to eat.
    I do that in favor of my brothers from Cheyenne River, and 
I met with them in Pine Ridge recently. We have had a little 
discussion about what we wanted to do. Also, Mr. Chairman, as 
mentioned by Del McOmie,, that the transit operation has given 
us the opportunity to buy medical rights to our people on 
dialysis on Wind River, the Shoshone Tribe has a dialysis 
center. We transport 74 individuals daily or weekly, every 
other day, for medical treatment, which maintains their lives.
    There are a number of other things in our maintenance 
charts we can show, if they could put that up, please, that 
indicates how we look at our maintenance funding, BIA and 
tribal roads. In authorizing MAP-21, previously in 1982 we had 
$45 million for roads. In SAFETEA-LU, prior to that, after they 
cut, the OMB and BIA looked at combining the road maintenance 
and taking 25 percent off of our construction costs, which 
prevents us from providing more construction dollars, 
backlogging the maintenance costs that are direly needed for 
improvement. So that limits our ability to improve safety.
    In our construction projects we fix potholes, we have what 
is called deferred maintenance, where we chip-seal roads, we 
try to prolong our roads and do chip-seal projects, protecting 
our pavement. But as we begin talking about what is a remedy 
that would happen, I think with the issue at hand, you can see 
we all need funding. We all need more funding. We have a 
proposal called by the TTUC Act that the tribes fully endorse 
putting that into a bill to come out of the Committee here to 
be presented to the EPW committee as they consider legislation. 
We definitely want to improve that.
    But finally, Mr. Chairman, I ask you to convene a meeting 
with the leadership of Interior Appropriations Subcommittee, 
the Department of Interior and OMB to address this crisis and 
give it the gravity it deserves to improve the course of the 
maintenance program. It is an extremely small amount of money, 
relative to the tens of billions of dollars in increases of 
defense or other programs that the Senate and the House are 
dealing with today. So I don't want you to declare war on 
Indian Country, but I would like to receive some of those funds 
attributed to our needs.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith follows:]

Prepared Statement of John Smith, Director of Transportation, Northern 
   Arapaho and Eastern Shoshone Tribes, Wind River Indian Reservation
    Chairman Barrasso, Vice Chairman Tester and Honorable Members of 
the Senate Committee on Indian Affairs. My name is John Smith and I 
have the honor of being the Transportation Director for the Northern 
Arapaho and Eastern Shoshone Tribes of the Wind River Indian 
Reservation in Wyoming. I wear a few different hats, as I am also the 
Executive Director of Intertribal Transportation Association and have 
served on many task forces and panels dealing with transportation in 
Indian country. Although I am not authorized to speak on behalf of 
them, based on my recent meetings with tribes in Montana, Wyoming, 
North and South Dakota, I believe my thoughts are consistent with what 
I have heard from many others. I do want to express my appreciation to 
this committee and particularly to the Chairman and Vice Chairman for 
convening this hearing and inviting my testimony.
    As you have heard over the years, Indian people are injured and 
killed in automobile accidents at rates far higher than any other group 
in the United States. There is much empirical data to this effect from 
various studies including a number by the Centers for Disease Control. 
We do have a problem with traffic safety on Indian reservations and you 
are to be commended for holding a hearing that focuses on this problem.
    I have some charts that Mr. Waters and Mr. Lambert are now 
displaying that paint a disturbing picture. The data in this first 
chart is a little dated as it comes from 2009 but it shows Pedestrian 
Deaths on Public Roads by race. While there was some improvement from 
2008 to 2009, you can see that even in the better year of 2009 that 
Indian pedestrians die at a rate that is nearly 80 percent higher than 
do non-Indians. Mr. Chairman, I have spent my life on Indian 
reservations and I can tell you why this rate is so much higher for our 
people. I can't remember the last reservation I was on that had 
sidewalks, but even more alarming are the numbers of roads in Indian 
country without adequate shoulders or perhaps any shoulders at all. The 
roads in Indian country are also often lacking in guardrails, 
crosswalks and overpasses. Why is that? Let me answer that question in 
a moment but first I would ask my friends to put up the next chart.
    Whereas the first chart focused on pedestrians, this chart is a 
comparison of all manner of Motor Vehicle Deaths and what it shows is 
even worse. When it comes to motor vehicle deaths, Indian people die at 
more than double the rate than non-Indians do. In the Great Plains and 
Rocky Mountain regions, the data, is much worse, particularly among our 
Indian youth under the age of 19. There deaths are three and a half to 
four times the national average for motor vehicle deaths, and four and 
a half to five times the national rate for pedestrian fatalities. The 
Wind River Reservation has the dubious distinction of having the 
highest rate of pedestrian deaths in the U.S. Nationally, two Indian 
people die every day in motor vehicle accidents and American Indian 
infants die at a rate that is eight time the national average for non-
Indians.
    Pedestrian deaths on the roadways of Indian country and death and 
injury of occupants of cars and trucks on those same roads have one 
thing in common: bad roads and, more often than not, unpaved roads. 
When you have narrow roads, with sharp curves, no medians and no 
shoulders, you are asking for trouble. Only 7 percent of the roads 
owned by Indian tribes are paved, the remaining 93 percent are gravel, 
earth or primitive roads and only 26 percent of the roads owned by the 
Bureau of Indian Affairs are paved, the remaining 74 percent are 
gravel, earth or primitive.
    Mr. Chairman on the Cheyenne River Sioux Indian Reservation in 
South Dakota, there is a road known simply as BIA Route 11. It leads to 
the Takini School, which houses Kindergarten through 12th grade 
students. Route 11 is hilly and has so many problems that during 
inclement weather, the bus driver stops at the bottom of steeper 
stretches of Route 11 and unloads the children. He then guns the bus to 
the top of the hill. The children walk up the hill and get back on the 
bus again and he repeats this same routine at the next hill. He doesn't 
do this because the bus lacks the power, he does it because he is 
fearful the bus will slide off the side of the road, a road with almost 
no shoulder and drop offs on either side. His theory is that if the bus 
slides off the road and flips over, it is better that he be the only 
passenger. In inclement weather, vendors often refuse to deliver their 
products--including food for lunches--to this school because they are 
fearful of driving on the road. On those days, they will leave their 
product in the town of Howes, which is 32 miles away, or the town of 
Faith, which is 40 miles away. School employees will then have to 
undertake a 64 or 80 mile round trip to retrieve vendors' products. So 
not only do the bad roads lead to death and injury among our Indian 
people, but they disrupt education, on bad days they make getting to 
work impossible, they greatly delay or prohibit emergency response 
vehicles from responding in a timely basis; they serve as a major 
disincentive to economic development and make it impossible to entice 
businesses to locate on such lands We already are lacking in nearby 
hospitals or clinics throughout much of Indian country but when 
ambulances endeavoring to retrieve and deliver a person injured in an 
auto accident have to traverse roads like Route 11--which in the best 
of circumstances greatly slows them down and in the worst circumstances 
makes access nearly impossible--you can imagine what effect that has on 
the ability to save a badly injured resident. Engineering estimates are 
that it will cost just under $10 million to rebuild Route 11 to safe 
conditions. That is many time what the Tribe's total road budget is for 
the entire reservation. They have asked my advice and alii can 
recommend is to submit to DOT for a TIGER grant and pray that it gets 
funded. The odds are great that it won't be.
    Indian tribal governments could also play a key role in reducing 
the death rates among passengers in motor vehicles by establishing 
codes and enforcing seat belt and child safety restraint use laws and 
regulations as the larger non-Indian community has. This is now 
happening more and more in recent years but tribes absolutely have some 
catching up to do in this regard. We also need education campaigns 
about the dangers of riding in the backs of pickup trucks, driving 
while under the influence of alcohol and distracted driving. I am glad 
to see that the Federal Highway Administration has been convening 
Tribal Safety Summits which are teaching tribal transportation planners 
such as me the latest on successful education campaigns that we can 
implement on our homelands.
    Another problem that tribes face is that so many of our 
reservations were allotted during the ill-conceived Allotment Era and 
the land is checker-boarded with various governments having varying 
laws and regulations applicable on the same reservation. In those 
instances it is important for tribes, state and counties to coordinate 
on seat belt laws for instance. I for one am glad the Tribes on the 
Wind River Reservation are now coordinating much more with the state 
than we did just a few years ago and I am delighted to see my friend 
and colleague Del McOmie, the Chief Engineer of the Wyoming Department 
of Transportation (WYDOT), here today and on this panel.
    Not only can tribes coordinate better on safety enforcement but on 
road construction as well. WYDOT and my department jointly undertook a 
major construction product when we rebuilt what is known as 17 Mile 
Road on the Wind River Reservation. This had been one of the most 
dangerous roads in the country with many accidents and fatalities. It 
was a road that carried about 3,000 people a day including over 1,000 
students. Not only did the construction of the road result in the 
creation of 130 jobs for tribal workers but we widened much of the road 
from 22 feet to 40 feet, we put up 28 miles of fence and installed 
cattle guards and replaced irrigation pipe running alongside the road. 
Since we opened it up in October 2013, we have only had an 84 percent 
reduction in injuries and only one major accident and unlike the pre-
construction days, the car involved didn't roll over in the ditch next 
to the road as the ditch no longer exists. We have also instituted 
culturally geared traffic safety messaging that is in English as well 
as the Arapaho and Shoshone languages and we coordinated with the 
University of Wyoming to prepare a reservation-wide Traffic Safety Plan 
and are coordinating these initiatives with the state of Wyoming. 
Attached is a write up about our program including some of the safety 
messaging ads and billboards we are using.
    Mr. Chairman, I must say that while driver education and safety 
orientation campaigns will definitely help and must receive more 
funding, the main problem we have is that both the Congress and the 
Administration (regardless of party affiliation) are so profoundly 
underfunding the road system in Indian country that we will never have 
safe roads unless they are properly built and maintained. If your roads 
are icy and full of dangerous curves and gigantic potholes because you 
don't have the money to maintain them and if you don't have proper 
signage and wide shoulders, you can educate people until the cows come 
home. You won't have safe roads.
    Let's first examine the Bureau of Indian Affairs Road Maintenance 
Program. In 1992 the BIA Roads program was funded at $41 million a 
year. That level of funding was, by all accounts profoundly less than 
was necessary for the maintenance that was needed on our roads. So what 
is the BIA's road maintenance budget this year, 23 years later? Mr. 
Chairman it is $26 million! That is $15 million LESS that we had two 
decades ago and of course that does not take inflation into account. If 
the appropriations in the BIA's road maintenance budget in the early 
1990s had simply been allowed to grow at a normal rate and reflect need 
the budget for that program would be over $110 million today. Instead 
it is $26 million. You need not look any further than that one 
statistic alone to get a good idea why we have the problems we do on 
our roads. If you ask the BIA how they could possibly justify reducing 
the BIA Road Maintenance budget they will undoubtedly tell you that 
they did so when the TEA-21 highway bill became law which included a 
decent increase in funding for reservation roads. The problem with that 
argument is that the Congress specifically told the BIA, time and time 
again, that the increase in the DOT budget was for road construction 
and renovation and that the BIA was still the primary entity 
responsible for maintaining those roads. The Congress told the BIA not 
to reduce the maintenance budget in lieu of the increased funds being 
made available for construction and renovation. The BIA, undoubtedly 
pushed to do so by OBM, flatly ignored that directive and we have seen 
the results, a huge reduction in maintenance funds and the 
corresponding deterioration of roads on reservations, and the 
unnecessary deaths and injuries of untold numbers Indian people.
    Mr. Chairman, there are 566 Indian tribes and 56 million acres of 
trust land. There are 31,400 miles of BIA roads and 26,000 miles of 
Tribal roads on those lands for a combined total of 57,400 miles of 
roads. These roads only get funds from the federal government for 
maintenance; they get no help from counties or states. $26 million 
divided by 57,400 miles equates to $452 per mile for maintenance. The 
BIA is more directly responsible for their roads than they are for 
tribal roads so the figure may be closer to $600 per mile but whether 
it is $400 or $600, it should be compared to what state and counties 
spend per miles for road maintenance. This figure varies widely 
depending on what data is used and what study you rely on. The Federal 
Highway Administration (FHWA) says that over $46 billion was spent on 
road maintenance by all units of government in 2010, and there are 
approximately 4 million miles of road in the U.S. As this chart shows, 
that breaks down to about $11,000 per mile. A study prepared by the 
Illinois Institute for Rural Affairs and Agricultural Economics 
Department at the University of Wisconsin indicated that counties are 
spending over $16,000 and metropolitan counties are spending almost 
$30,000 per mile. For the sake of argument, let's accept the lower 
$11,000 figure. How can the BIA expect tribes to protect the lives of 
their citizens when it provides less than 5 percent of what the 
counties are spending on road maintenance? Mr. Chairman this is gross 
negligence and Indian people are paying for it with their lives. The 
chart being displayed now shows this disparity. You know it occurred to 
me that when tribes sued the BIA and IHS for non-payment of contract 
support costs they prevailed and now we are seeing realistic requests 
from the Administration for that program. When tribal trust lands were 
grossly mismanaged a number of tribes sued under what is known as the 
Salazar cases and received a multi-billion settlement. It is a sad 
commentary that apparently the only way the BIA and OMB will step up to 
the plate and request what is needed for road maintenance, is for the 
estates of Indian people killed or maimed on bad roads to sue them and 
get a court order or an out of court settlement requiring the agency to 
respond to this very serious problem. By the BIA's own admission, 83 
percent of BIA system roads are deemed to be in an ``unacceptable 
condition'' yet their request to Congress for the past 19 years has 
stayed flat varying between $24 to $26 million. I find that incredible.
    Because the BIA has been so negligent in maintaining the roads in 
Indian country the Congress and the FHWA reluctantly agreed that up to 
25 percent of the Highway Trust Fund money that is supposed to be used 
for construction and renovation of Indian reservation roads, can be 
used for maintenance. This of course means there is that much less 
money available for new construction, improvement or reconstruction of 
roads. Among other things this means that dangerous and windy gravel 
roads will be less likely to be replaced with better designed, safer 
paved roads. In addition to the previously referenced 57,4OO miles of 
BIA and Tribal roads there are also 101,000 miles of State and County 
roads that are part of the National Tribal Transportation Facility 
Inventory and that must be factored into the allocation system.
    When Congress enacted MAP-21, they did make improvements to the 
allocation formula for distributing Highway Trust Fund dollars to 
Indian country, shifting the focus more toward on-reservation BIA and 
Tribal roads and away from county roads, proposed roads and access 
roads but they left the funding amount flat at $450 million. This 
actually represents a decrease because SAFETEA-LU had funded the Indian 
Reservation Bridge program separately from 2008-2012 in the amount of 
$14 million and MAP-21 simply told tribes to take the bridge money away 
from what is now called the Tribal Transportation Program (TTP) so the 
$450 million actually represents a $14 million loss. There are over 
4,000 bridges in Indian country identified in the TTP and 25 percent of 
them have been rated structurally deficient or functionally obsolete. 
The cost to replace or rehabilitate those bridges is more than $600 
million so eliminating the separately funded bridge program in MAP-21 
was a bit bewildering.
    There are also a number of so called ``take downs'' that take money 
away from the $450 million before it ever gets distributed to Tribes. 
In 2014 those takedowns were as follows: minus $22.9 million (5.1 
percent) for Obligation Limitation; minus $9 million (2 percent) for 
Safety Program; minus $9 million (2 percent) for Planning; minus $9 
million (2 percent) for Bridges and minus $27 million (6 percent) for 
BIA and DOT Administration. These take-downs total $76.9 million taken 
from the TPP before it is distributed through the formula. All of them 
should be funded separately and not taken out of the formula pot and we 
ask this committee to support the proposal to exempt the TPP from the 
Obligation Limitation. That $23 million has a profound impact on the 
overall TPP but is such a small amount of the overall $40.2 billion 
Federal Aid Program that it wouldn't even be missed. This would restore 
things to how they were before TEA-21 was enacted as that was the first 
time the Obligation Limitation was applied to the Indian Reservation 
Road Program (now TTP). MAP-21 also requires bridge inspections but it 
provides no funding we can use to undertake these expensive 
inspections. It is an unfunded mandate that needs to be addressed in a 
MAP-21 reauthorization.
    There are a number of concrete and achievable things the Congress 
could do generally as outlined in the proposed Tribal Transportation 
Unity Coalition's recommendations for reauthorizing MAP-21, most 
importantly to increase the TTP to a level that will allow Indian 
country to address the multi-billion backlog of necessary road 
construction projects. The Tribal Transportation Unity Caucus (TTUC) 
recommends funding at the TPP at $800 million in the first year of 
reauthorization. If that is not possible, a funding level of $700 
million would represent an amount that would allow us to address the 
backlog. The Indian Country Bridge program needs to be funded at a 
level of at least $75 million independent of the TPP. We ask the 
members of this committee to introduce the draft legislation that has 
been provided by the TIUC as a means of laying down markers that we 
hope would influence the Senate EPW Committee as it works to 
reauthorize MAP-21. Among its other provisions, the draft legislation 
proposes to establish a 2 percent set-aside for tribes in the Highway 
Safety Improvement Program and increases NHTSA's Tribal Safety Program 
from 2 percent to 3.5 percent. With those funds, Indian tribes could 
undertake many initiatives that would increase traffic and pedestrian 
safety on Indian reservations.
    Finally, Chairman Barrasso and Vice Chairman Tester, I ask you 
convene a meeting with the leadership of the Interior Appropriations 
Subcommittee, the Department of the Interior and OMB to address this 
crisis with the gravity that it deserves and determine a method so that 
over the course of the next two to three years that the BIA Maintenance 
budget be put on a glide path to $150 million a year in funding. That 
is an extremely small amount of money relative to the tens of billions 
of dollars in increases for Defense and other programs that I 
understand are being discussed here in Congress this week but would 
absolutely save lives in Indian country.
    Thank you again for inviting me and for your consideration of my 
views.
    Attachments
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   

    The Chairman. Thank you very much, Mr. Smith.
    Let me just start with a couple of questions while we wait 
for some of our other colleagues to get back from voting. I 
think what you and Del have accomplished and achieved together 
on 17 Mile Road is really a great accomplishment. It is a model 
that could be followed all throughout Indian Country.
    With the large inventory of roads, certainly in the Wind 
River Reservation, there is still a lot of work that needs to 
be done. That means that we have to find the most efficient 
uses for every dollar. In addition, as you said, to more 
dollars, we need to make sure that the dollars that are 
available are being used well and specifically, every dollar in 
the tribal transportation program.
    So I am just wondering how you think things like the 
overhead and the administrative costs for this program could be 
best used to actually promote road safety, if it could be made 
more effective, more efficient and more accountable.
    Mr. Smith. As Mr. McOmie also alluded to, some of the 
paperwork that is involved in putting these projects together, 
I have heard you use some of my quotations from when we were 
here testifying earlier, prior to the 17 Mile Road.
    The Chairman. I quote you all around Wyoming, because it is 
so smart, yes.
    Mr. Smith. It felt like we were producing a mile of 
paperwork for every dollar we got to increase that road, with 
all the permits and those added things. Also, by the 
requirements of the Bureau of Indian Affairs in regard to 
right-of-way, which is being addressed right now in a rules and 
regulations process. We have commented on that to improve those 
things.
    Then the permits, we hire our own permittees, but they 
still have to go back through the Bureau channel to get those 
fully authorized. So it is like getting a double authorization 
on a project. Particularly when you are talking about bridges, 
when you talk about bridges you are talking about an enormous 
amount of paperwork that has to go in. And if it is readily 
there, you can construct the bridge.
    But bridges really need to be improved. Prior to SAFETEA-
LU, we were at, within SAFETEA-LU we had $14 million. In 
today's market, we are at $9 million in MAP-21, which either 
means more money or a setaside program for bridges taken out of 
the program to operate. Those same levels as it was stated by 
Mr. Black, we have like 450 bridges that are obsolete. With the 
new rules in MAP-21, we are required to number and inspect 
tribal bridges that are within the tribal system that were not 
done prior. So we have a lot of work to do in regard to our 
bridges.
    The Chairman. Thank you.
    Mr. McOmie, if I could ask you, your written testimony 
highlighted the good work that you and Big John have 
accomplished to make roads safer on the Wind River Reservation. 
In particular, the construction of 17 Mile Road has led to a 70 
percent reduction in crashes and injuries, fatalities on that 
road.
    You also noted the need to increase flexibility for States 
and for tribes on road safety projects. Could you explain for 
the Committee some of the bureaucratic barriers that the State 
and tribe had experienced in constructing the 17 Mile Road? Do 
you think we could do things for other States so they could be 
incentivized to partner with tribes like you have done to 
improve road safety?
    Mr. McOmie. Mr. Chairman, when we began the process of 
working through to improve 17 Mile Road with the tribal 
transportation directors and members of the business council, 
quite frankly, WYDOT wasn't prepared to, we weren't familiar 
with the BIA rules and regulations that we would have to deal 
with. We have done that for years. But you kind of just work 
through the process. There had to be a better way to try and do 
that.
    So working with John's office and the BIA members on the 
reservation, we began a learning curve. It has really taken 
years, but I think we are to the point we kind of understand 
the process.
    What I see with some of the other States, what I have heard 
from some of the testimony today, is that I think perhaps the 
Federal Highway Administration, working with the BIA, there may 
be the opportunity to provide some best practices or maybe the 
opportunity to do some sharing of information, so that other 
States don't go through the many years of process that we went 
through in Wyoming to try and figure out just how to work the 
various systems, the difference between what we do currently 
with FHWA and how the BIA operates.
    As Mr. Smith indicated, working the right-of-way issues, we 
do that day to day on all of our other jobs in the State of 
Wyoming. But it is different with the rules and regulations and 
the number of people involved in a parcel of land on the 
reservation. Utilities are another respect.
    Then just how do you work with the various functions within 
the BIA, such as when we were installing or getting rid of the 
irrigation canals and working through that type of an issue. 
Different process than I think most State DOTs are used to. I 
think that sharing of information from State to State would 
benefit all the tribes and all the States in the Country.
    Senator Tester. [Presiding] Thank you.
    Director Black, there are 900 tribally-owned bridges, 
about. Could you tell me what condition they are in?
    Mr. Black. As I stated in my oral testimony, we have about 
19 percent of our bridges, or around 170, 180 total bridges, 
that right now are deficient. We have been able to show and see 
some improvement over that. If you measure against nationwide 
against all bridges in the Country, were at about 24 percent 
are deficient. We have been able to reduce our deficiency from 
25 percent in 2005 down to the 19 percent today.
    Senator Tester. Governor Chavarria, what impact would 
increasing bike paths and sidewalks have on the overall level 
of transportation in your neck of the woods?
    Mr. Chavarria. Basically, on State Road 30, we did work 
with the State to try to incorporate sidewalks and crosswalks, 
to safely allow people to cross from one side of the street to 
the next. So without these important discussions with the 
State, again, it falls on deaf ears. So again, the State or the 
municipality has a permanent or perpetual right-of-way 
agreement. And with that perpetual right-of-way agreement, it 
is up to the State to go ahead and provide safety mechanisms 
for my community members.
    For instance, I had a young man get hit last year at the 
safety walk. Those cars don't even stop, and we have 14,000 
vehicles a day on that road. So again, we proposed an overpass. 
They said that we didn't have enough data to support that. So 
again that goes into our safety plans, and working together. 
That is very important in order to provide a safety mechanism 
to our tribal members within Santa Clara Pueblo.
    Senator Tester. Good, Rick, you mentioned the impact of the 
Bakken and wear and tear on reservation roads. What have you 
done to try and help fix that problem of the wear and tear due 
to the heavy traffic, heavy truck traffic?
    Mr. Kirn. Vice Chairman Tester, we have done quite a bit 
with our roads programs to rebuild the roads. We have a 
secondary tribal road on our reservation that most of us use in 
lieu of Highway 2. But it is still in very, very poor condition 
because of the weather conditions that we have, the freezing 
and thawing. You obviously know that, in our country, with the 
different weather conditions. So maintenance has really been 
very poor. We can't really help out as much. The counties are 
in very poor condition to be able to help, either.
    We don't really receive as much of the royalties from the 
oil and gas production that some of the far eastern part of our 
county, close to North Dakota, has used. So we need more funds 
to be able to do road maintenance and to repair our roads.
    Senator Tester. So you are basically getting hammered by 
the heavy trucks and there is not much you can do about it, 
because you just don't have the funds?
    Mr. Kirn. Absolutely.
    Senator Tester. Okay. You mentioned signage, guardrails, 
rumble strips and other elements of road design that work to 
increase the safety of a given road. Do you know what the costs 
associated with adding these features are as far as the average 
costs undertaken by transportation? Is this a big ticket item 
or pretty small in the overall scheme of things?
    Mr. Kirn. I couldn't tell you, Vice Chairman Tester, on 
what the exact costs would be. But it would be significant. 
With more highway safety funding, roads and reservations are 
often poorly maintained because of the shortfall of road 
maintenance and funding. Additional safety funding could be 
used effectively to improve signage, striping, guardrails, 
flatten sharp curves, repair pavements, correct safety 
deficiencies on roads or bridges throughout the reservation. I 
think it would be significant.
    Senator Tester. Thank you all for your testimony. Because 
of the votes, it has been kind of hectic. I will turn it over 
to Senator Franken.
    Senator Franken. Thanks, Senator Tester, and to the 
Chairman. You know what, I am thinking that maybe by rules you 
go to Senator Daines. We have to go back and forth.
    Senator Tester. You are exactly right. I did not see 
Senator Daines here.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. I had your six. Thanks, Jon.
    I want to thank Chairman Barrasso and Ranking Member 
Tester, proudly from Montana, for holding this important 
hearing today. Highway safety is a critical issue in Montana. 
And we have some of the very worst highway fatality rates in 
the Country.
    Mr. Kirn, it was great talking to you yesterday. Thanks for 
making the journey from northeast Montana. We appreciate it.
    Mr. Kirn. It was our pleasure.
    Senator Daines. I know you also have some other council 
members, we have some folks from the Dry Prairie Rural Water 
Authority and it was a very productive time. Thank you.
    I have made that trip across Highway 2 many times, going 
from the Fort Peck Reservation. One thing that strikes me when 
I make that trip is that there are just too many white crosses 
along the highway. In fact, we have too many white crosses 
across the highways in our entire State. We have the highest 
per capita highway fatality rate in the Country. In fact, one 
of those white crosses is my uncle Tommy Daines. We lost him 
back in the mid-1960s. I remember driving south from Columbus 
down to Absarokee, there is a white cross, every time we drove 
by it when I was a kid, my grandpa lost his son, it was always 
a moment of silence for Tommy Daines. You never get over that.
    But even more striking are the numbers in Indian Country. 
Mr. Kirn, you started your written testimony by stating that 
Indian Country roads are not safe roads. You mentioned as well 
that while Native Americans make up 6.5 percent of our 
population of Montana, they comprise 15.4 percent of highway 
fatalities going back to 2009.
    I would like to get your thoughts around what are the 
factors driving this discrepancy between Indian Country and the 
rest of the State. And has the new electronic crash record 
system improved the data that is available for us to look for 
solutions to this problem?
    Mr. Kirn. Thank you for the question, Senator Daines. You 
are right, my father was one of those white crosses when he was 
20 years old. So I understand what you are talking about.
    But I think the discrepancy in the fatalities in Montana is 
probably due to the poor road conditions and also because of 
the lack of first responders that we have for the ambulances 
that would respond to a crash, and the lack of trauma centers 
in rural reservations. We have to take our people as far as 
Billings, Montana or Great Falls, Montana. It just takes too 
much time. If there is any possibility of any kind of survival, 
it would really be lessened because of the distance to the 
trauma center from our reservations and I think most of the 
reservations in Montana.
    Senator Daines. You also mentioned that Fort Peck has 
enacted ordinances to make not wearing a seat belt a primary 
offense, and to ban domestic animals on highway rights-of-way. 
Have these led to a noticeable improvement in highway safety?
    Mr. Kirn. Absolutely, Senator. Montana doesn't even have 
the primary seat belt law. We just thought that because of the 
highway fatalities and the possibility of them, we as a tribal 
council member, and part of our tribal council, we implemented 
a primary safety seat belt law. We also introduced a primary 
law to ban cell phone or any kind of use of phones while they 
are driving. It has been doing quite good. We have had good 
results. I couldn't give you the figures, because it has only 
been about a year since we have done that.
    Also, the Fort Peck Tribe does not have an open range law 
for animals. We try to ban that from happening. Traditionally, 
Native Americans have livestock and their horses, in winter 
time, they usually turn them out. Because the farmers don't 
really have too much damage in the winter time, they tolerate 
them. But we try to educate the people on the hazards of 
livestock roaming on the open roads and also the people who are 
driving to watch out for them. So education is really 
important. With the funding that we could get from this 
program, we could educate people on those hazards.
    Senator Daines. Great. Thanks, Mr. Kirn.
    I would like to yield my additional time that I have for 
the graciousness of the Senator from Minnesota, Senator 
Franken.
    Senator Franken. [Presiding.] Thank you, Senator. I am now, 
I guess, the chairman. So I would like to thank the Chair for 
this very important meeting on this important topic. I am 
stunned by the testimony of exactly what the Senator from 
Montana just raised, which is the outsize number of fatalities 
that we see in Indian Country, by percentage of population. I 
commend you for the work that you have done.
    I personally think that we need to invest in our 
infrastructure all over the Country. I believe that Indian 
Country, given my experience here, doesn't always get first 
priority. Unless we really do something about our entire 
national infrastructure, you are not going to be getting the 
funds that you need. So this is an absolutely essential thing 
that we need to do. We can't keep doing these short-term 
patches on MAP-21, et cetera.
    I was up at Leech Lake Reservation, went to the Bug-O-Nay-
Ge-Shig School, which is a school that they have been trying to 
get replaced. The physical plant is a disgrace. Not only that, 
but some of the kids have a 100-mile round trip to the school 
every day. On top of everything else, it snows a lot in 
Minnesota, as you might know. I know it does in Montana. The 
roads, when it snows, the amount of plowing that is done 
compared to everywhere else, all of that then takes time out of 
the kids' school day as if they needed that.
    So there is a deficit in infrastructure in Indian Country. 
Congress has to work to fix that.
    Mr. Smith, can you talk to me more about how you end up 
making transportation funding decisions when you simply don't 
have enough resources in the first place? How do you make those 
decisions?
    Mr. Smith. On Wind River, we have hearings ourselves on 
what is called a transportation improvement program. Then the 
councils set the priorities. Then for the priorities, you are 
able to meet with your financial funds at hand are the 
priorities you try to complete. But much like my associate 
Delbert, we have roads in Wyoming that suffer the same dilemma 
in the State process. When they can't get a road funded, they 
have to reschedule that part of the road, if it is going to be 
a chip-seal, if it going to be a maintenance patch, however you 
can afford to do it is how we operate on getting our roads in a 
priority.
    It is usually done by school bus routes, our priority. Then 
also roads for people who have to get into medical clinics 
daily or very often, once a week or twice a week need to have 
their priorities. We run our snow plow in the winter time, we 
will begin operating them at 3 or 4 o'clock in the morning over 
a certain level of snowfall so our snow plows can be effective. 
And then we run those daily with the county and the State and 
process whatever road it is, plow gets dropped on it. And we do 
that cooperatively amongst each other to improve our road 
conditions in the winter time.
    Senator Franken. So you use triage, essentially, and do the 
best you can with what you have.
    Mr. Smith. Correct.
    Senator Franken. Most important first.
    While funding is a huge issue and a crucial issue, so is 
addressing transportation safety through education. The White 
Earth Band of the Ojibwe has partnered with the University of 
Minnesota to develop a safety curriculum for Native American 
youth. I think it is important that safety education starts 
early. Councilman Kirn, can you talk about the role of 
education in improving seat belt use, I know you made it a law, 
and just transportation safety more generally?
    Mr. Kirn. Absolutely, Senator Franken. Education is key to 
increasing effectiveness of increased seat belt and child 
constraint usage. In some cases, child restraints are not 
readily available for young families and education on proper 
use is unavailable. Seat belt use is significantly lower among 
Native Americans and on Indian reservations. The target age 
group is like 16 to 35 years old.
    Public service announcement campaigns have also shown an 
increased awareness for this age group. Funding for safety 
education on reservations has always been extremely limited and 
increased funding would reach a greater number of the targeted 
age groups. Alcohol and drugs contribute to the vehicle 
accidents on reservations and are often not considered as major 
factors to the accident rate.
    So educational campaigns are very important to us.
    Senator Franken. Thank you.
    Unfortunately, I have to go vote. The Committee will stand 
in recess while the chairman makes his way back from the vote. 
I want to thank you all for your testimony, and also for the 
great work that you are doing. Thank you.
    [Recess.]
    The Chairman. [Presiding.] I want to thank you all for your 
patience as we have gone back and forth between the votes.
    Mr. Kirn, I wanted to ask you if I could, in your written 
testimony you cite the Centers for Disease Control, how they 
found that from 2004 to 2010, Wyoming and Montana were among 
the top five States with the highest motor vehicle-related 
death rates among Native Americans. In Wyoming, a good 
partnership between the State and the tribes helps to find ways 
to improve road safety. This partnership, I believe, has 
significantly reduced motor vehicle-related fatalities on the 
Wind River Reservation. We have heard testimony to that effect 
today.
    How do you think other States could be incentivized to 
partner with tribes to improve road safety?
    Mr. Kirn. I think in good data collection systems, Senator 
Barrasso. I would like to also thank you for this opportunity 
to testify. As a former resident of Campbell County, Wyoming, I 
appreciate this opportunity.
    The Chairman. We are having the crawfish boil this Friday. 
So you know how big of a deal that is. If you can get back, we 
would love to have you.
    [Laughter.]
    Mr. Kirn. Numerous studies have confirmed that motor 
vehicle accidents are significantly under-reported in Native 
American and Indian reservations. One study showed that Native 
American crashes and deaths were three times higher than the 
general population. Good data collection on vehicle accidents 
is poorly collected, and a good data system has not been 
developed or implemented across Indian Country.
    As a member of the Montana Board of Crime Control for the 
last 12 years, we have been trying to work with reservations to 
collect more data. Data really drives funding. We need to do 
that to get more funds to be able to handle these problems. We 
are working on that with tribes in Montana also right now. I 
think that once we get that data collection system up, I think 
we will probably have better results on all these types of 
funding and also for helping resolve some of these problems 
with crashes.
    The Chairman. Mr. Black, the BIA manages thousands and 
thousands of miles of roads, almost 1,000 bridges. According to 
the Department of Interior's budget justification for fiscal 
year 2016, only about 17 percent of these roads, 63 percent of 
the bridges, are listed as acceptable, in acceptable condition. 
So addressing the poor conditions of these roads is going to 
require more than just money. Strategic planning and efficient 
administration are also critical.
    Can you describe the Bureau of Indian Affairs' strategy and 
plan of action to ensure that the agency can actually 
effectively manage this program and improve road safety?
    Mr. Black. I would be happy to get back to you with more 
specifics, Senator. But I think the answer to that, a lot of it 
is the collaboration between the tribes, the States, the 
counties and the Bureau of Indian Affairs and our other Federal 
partners to really come together and put our heads together. We 
know in the situation we are in, I think Senator Franken said 
it best, the States and everybody are facing crises in 
infrastructure right now. We are going to have to work together 
and pull together to see how we can best handle and manage the 
transportation program throughout Indian Country.
    The Chairman. The National Tribal Transportation Facility 
Inventory consists of about 160,000 miles of public roads with 
multiple owners, including, as you said, as Senator Franken 
said, tribal governments, Federal Government, State government, 
local government. And when there is an accident on a roadway, 
damages can occur to government property, including bridges, 
guard rails, signs, curbs, sidewalks, all the things that are 
related.
    Typically, insurance payments are collected of the damages 
that motorists have caused to public infrastructure. Are there 
different options that tribes can pursue to recover damages to 
the property caused by motorists?
    Mr. Black. At this time, I am not sure. I am not aware of 
any mechanism that is out there that would allow either the 
Bureau of Indian Affairs or tribes to collect funding for 
damages to roads. Currently that is not something we track. I 
would be happy to go back and see if there are some options 
that we can present.
    The Chairman. It does seem as a result of some of these 
accidents that there are unrecovered damages to Federal, tribal 
property in Indian Country. I don't know if anyone else has any 
thoughts on that or any suggestions or anything that you have 
done individually. Mr. McOmie?
    Mr. McOmie. Mr. Chairman, the Wyoming Department of 
Transportation, we do track accidents that damage our property. 
We actually go and bill the individuals. Generally it is the 
insurance companies that pay for that. We have recently had a 
couple of bridge strikes, for example, that were well in excess 
of a million dollars. So we are recouping that money from the 
insurance companies.
    So I think that is an option. Again, you need a good 
tracking mechanism for damage repairs. But I believe most State 
DOTs operate in a similar fashion.
    The Chairman. Okay, thank you.
    Anything else any of you would like to add as a result of 
the hearings today? Yes, sir.
    Mr. Chavarria. Yes, Mr. Chairman. Just reducing 
transportation fatalities and serious injuries with any 
sustained success requires all four elements of highway safety 
to be addressed: engineering, enforcement, education and 
emergency services. A tribal safety program, whether large or 
small, should work to address the four Es.
    And its foundation, which is data. Data collection and 
analysis provides technical staff and decision makers the 
ability to identify and prioritize safety issues. This goes 
back to crash data and roadway data and citation information, 
provides a basis for developing a safety plan, proposing 
strategies and developing needed education programs on tribal 
lands. The strategies that follow in this safety plan will 
support Santa Clara's tribal government as they manage the 
safety program, working with the BIA, Department of 
Transportation and the State and local government, the 
counties. That is very important, Mr. Chairman.
    The Chairman. For anyone who didn't have their pen out when 
you started on the four Es, can you go over those four Es 
again?
    Mr. Chavarria. That is engineering, enforcement, education 
and emergency services.
    The Chairman. Thank you so much. I appreciate everyone's 
testimony today. Thank you so much for being with us.
    If there are no more questions, and there don't appear to 
be, members may also submit follow-up written questions. They 
can do that for the record, so the hearing record will be open 
for two more weeks. I want to thank all of you for being here 
today and for working with us as we have tried to go through a 
number of votes on the Senate Floor. I thank you for your time 
and for your testimony today.
    This hearing is adjourned.
    [Whereupon, at 3:44 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Dave Archambault II, Chairman, Standing Rock 
                              Sioux Tribe
    As this Congress works to find a robust, bipartisan, and bicameral 
solution to ensure solvency for the Highway Trust fund and pass a long-
term reauthorization to the current highway legislation, we ask that 
Indian tribes be fully included. We are not now.
    The current state of transportation infrastructure in Indian 
Country is unacceptable. Longstanding funding shortfalls and 
bureaucratic inefficiencies have resulted in road systems that are 
unsafe--motor vehicle-related death rates for Native Americans are 1.5 
times as high as that of white and African Americans, and Native 
American infants are 8 times as likely to die in a motor-vehicle 
related incident as non-hispanic whites and hinder much-needed economic 
development and jobs. Our Tribal government is working hard to build 
our communities and strengthen our economy, but it takes modern 
transportation infrastructure to safely move people and goods through 
and within our communities arid territory. The next highway bill must 
break down transportation barriers that now exist in Indian Country.
    With MAP-21 expiring May 31st, Congress has an opportunity to 
significantly improve this situation. The Tribal Transportation Unity 
Caucus (TTUC), a broad coalition of diverse Indian tribes from across 
the country, has proposed a legislative package that includes fair and 
equitable funding increases and common-sense program improvements to 
address Indian Country's backlog of crumbling or nonexistent 
transportation infrastructure, promote Tribal economic development, and 
reduce the tragic and unacceptably high rate of motor vehicle 
fatalities and pedestrian deaths among Native Americans.
    We join the TTUC, the National Congress of American Indians (NCAI), 
the Intertribal Transportation Association (ITA), and many other Tribes 
and Tribal organizations across the country in supporting these 
proposals. We ask that you do so as well.
    In the next highway bill, we ask that you more than restore MAP-
21's $14 million funding reduction to the Tribal Transportation Program 
(TTP) and recognize how much more we could do if the TTP were funded 
along the lines of the TTUA proposals. We ask that Congress restore the 
obligation limitation deduction exemption (the deduction has removed 
$320 million from the IRR and Tribal Transportation Programs since 
FY2005), fund the Tribal High Priority Projects (HPP) Program 
authorized, but not funded, in MAP-21, and open it to every Indian 
tribe regardless of size to help us supplement our ``tribal shares'' 
under the TTP funding formula. We ask that Congress increase highway 
safety funds so that we may reduce alcohol-involved crashes and enhance 
seat belt and child safety seat compliance.
    We further ask that Congress enact common sense streamlining 
provisions, such as making tribes eligible direct recipients of all 
U.S. Department of Transportation discretionary and competitive grants, 
extend the highly successful tribal self-governance policy to the U.S. 
Department of Transportation (USDOT), and expand the use of existing 
Tribal Transportation Program agreements so that tribes may receive 
other USDOT transportation funds (e.g., Federal Transit Administration 
and National Highway Traffic Safety Administration funds).
    Many of these proposed legislative provisions would come at no 
additional cost, but would instead provide easier access to funding 
sources technically available but costly for Tribes to access. These 
recommendations will make a world of difference if Congress enacts 
them.
    When given the chance, Tribal governments have proven time and 
again that we can make productive use of our limited resources to 
improve the lives of our Tribal members and others using our roadways. 
We can do so much more with your help and partnership. Please support 
the TTUC's common-sense proposals. The federal trust responsibility 
demands no less.
                                 ______
                                 
  Prepared Statement of Hon. Fred S. Vallo, Sr., Governor, Pueblo of 
                                 Acoma
    Introduction. This testimony is intended to supplement the 
testimony provided by the Honorable J. Michael Chavarria, Governor of 
the Santa Clara Pueblo before the Committee in the above titled 
hearing. In his testimony, Governor Chavarria noted:

         ``Santa Clara does not have a railroad passing through our 
        lands, but many other tribes do. We have been advised that 
        railroad crossings in Indian Country pose a significant hazard. 
        For example, the Pueblo of Acoma has its community housing and 
        public safety facilities on the south-side of the BNSF tracks, 
        while the hospital, the interstate (with 200,000 cars passing a 
        day) and two major transcontinental pipelines lie on the north-
        side. With over 85 trains a day, each about two miles long, 
        Acoma has sought Transportation Investment Generating Economic 
        Recovery (TIGER) funding for a bridge to prevent delays for 
        public safety services and to reduce the risk of accidents. 
        There is no set-aside in TIGER for tribes, but there should be. 
        Tribes seem to be getting a very small share of these funds 
        despite the substantial need.''

    This supplemental testimony briefly describes the issues that Acoma 
has been dealing with and then provides more detail on the specific 
example of the railroad crossing.
Mesa Hill Bridge and Road Extension Project--Acoma Pueblo, New Mexico
Issues
  <bullet> Issue 1--The Pueblo of Application submitted U.S. Department 
        of Transportation TIGER I to TIGER VI construction funding 
        applications every year and were denied. National competition 
        is very competitive.

  <bullet> Issue 2--The U.S. Department of Transportation TIGER Program 
        attempts to fund many projects nationally thereby reducing 
        Pueblo of Acoma's full amount for the bridge and road 
        construction project. This disqualifies Acoma Pueblo and other 
        rural Indian tribes from the beginning of application 
        eligibility criteria.

  <bullet> Issue 3--The U.S. Department of Transportation should set-
        aside TIGER grant funds for rural, Indian tribes.

  <bullet> Issue 4--The U.S. Department of Transportation TIGER Program 
        should not penalize Indian tribes from receiving a TIGER award 
        if matching funds are not possible.

Project Description
    The Mesa Hill Bridge and Road Extension Project is to construct a 
1,160-foot span bridge superstructure and increase 0.718 miles of 
roadway from SP 36 to SP 30 including a turning lane on SP 30. The 
project site is 1.0 mile south of Interstate 40 at Exit 100. The road 
and bridge will go over the Burlington Northern Santa Fe (BNSF) 
Railway's two-main lines which will reserve room for a possible third 
track, the Rio San Jose, two traditional irrigation systems, Kinder 
Morgan (natural gas) utility service lines and traditional farming 
lands. The project is construction ready.
Safety Factors
    The bridge design over the BNSF Railway accomplishes long term 
public safety needs that complement economic growth. First, the 
overpass design will allow BNSF Railway to proceed with its intense 
transportation schedule through rural federal reservation tribal lands. 
The multimodal movement on the railway and roadway provides a safe, 
connected and accessible system for the delivery of goods and people. 
Vehicle traffic will be minimized at nearby rail at-grade crossings. 
This will minimize or even eliminate the potential of vehicle-train 
collisions.
    According to the Office of Safety Analysis, Federal Railroad 
Administration, U.S. Department of Transportation website, the BNSF 
Railway highway-rail and trespassing incidents account for a 
significant number of all incidents:


------------------------------------------------------------------------
           Nation-Wide             2009    2010    2011    2012    2013
------------------------------------------------------------------------
Total Accidents/Incidents           1614    1670    1530    1318    1312
      Total fatalities               123     123     106      79     115
Highway-Rail and Trespassing         257     297     289     286     312
 Incidents
      Total Fatalities               115     118     100      75     112
Percentage of all fatalities         94%     96%     94%     95%     97%
------------------------------------------------------------------------

    The Office of Safety Analysis defines total accidents and incidents 
as the sum of train accidents, highway-rail and other incidents. 
Highway-rail and trespassing incidents are impacts between a rail and a 
highway user at a crossing site, regardless of severity; this includes 
motor vehicles and other highway/roadway/sidewalk users at both public 
and private at-grade crossings.
    In the State of New Mexico, the percentage of total fatalities is 
100 percent at-grade crossings and sidewalks:


------------------------------------------------------------------------
           New Mexico              2009    2010    2011    2012    2013
------------------------------------------------------------------------
Total Accidents/Incidents             56      52      38      38      45
      Total fatalities                11       8       6       1       7
Highway-Rail & Trespassing             6       3       2       3       7
 Incidents
      Total Fatalities                 9       8       6       1       7
Percentage of all fatalities         82%    100%    100%    100%    100%
------------------------------------------------------------------------

    In a no-build situation, the result would be that the fatality 
rates at at-grade crossings and pedestrians crossing at railroad tracks 
will continue to remain the same or increase. This would be 
devastating. Currently, it takes 4 minutes for a train to pass on one 
track. At times, there is another train passing on the second track 
increasing the wait time to 8 minutes. If a third track is installed, 
the wait time will be increased to 12 minutes. Four minutes alone is 
crucial in a life and death situation.
    Second, in a build situation, the bridge design will eliminate 
delays when emergency responders must stop at at-grade crossings to 
allow trains to travel. According to Acoma police reports for 2013, 
when responding to emergency calls the following train delays were 
recorded:

    January at 8 delays        July at 7 delays
    February at 2 delays        August at 4 delays
    March at 2 delays          September at 4 delays
    April at 2 delays            October at 4 delays
    May at 4 delays            November 0 delays
    June at 3 delays            December 0 delays

    There is an average of 3.33 delays per month for the past year.

    Between January 2007 to December 2012, the Acoma Pueblo Public 
Safety Department responded to 301 vehicle accidents or an average of 
40.5 vehicle accidents per year. Vehicle accidents occurred on the 
following major roads:

Pueblo Road, SP 30                                                  74
Sky City Casino area, Exit 102 off I-40                             67
Interstate 40                                                       51
Pinsbaari Road, SP 32                                               27
Haaku Road, SP 38                                                   24
------------------------------------------------------------------------
    TOTAL                                                          243
------------------------------------------------------------------------

    Nearly half of vehicle accidents listed above are on Interstate 40 
and at Interstate 40 Exit 102 area. The Acoma Pueblo Police Department 
must cross the railroad tracks to these high vehicle traffic and 
population areas. It is important to note that from Interstate 40, 
tourists and visitors travel on Pueblo Road and cross the railroad 
tracks to Pinsbaari Road and Haaku Road which leads to the national 
historic site of ``Sky City.''
    For the past 3 years, the Acoma Pueblo Fire Department responded to 
an average of 930 emergency calls per year:

Structure Fires                                        6       6       7
Vehicle Fires                                         12      11      16
Vegetation Fires                                      51      46      39
EMS Incidents                                        412     547     621
Rescue Incidents                                      71      95     115
Hazmat Incidents                                      12      16      25
Service Incidents                                     54      61      74
Public Assistance                                     47      52      65
False Alarms                                          39      64      73
Other                                                 42      53      59
------------------------------------------------------------------------
    TOTAL                                            746     951    1094
------------------------------------------------------------------------

    There is excellent collaboration with other off-reservation public 
safety agencies. The nearby community of Cubero has a volunteer fire 
department and has assisted with several calls on Acoma Pueblo lands. 
The Acoma Pueblo fire department and police department are assisted 
with county and state public safety agencies in a number of incidents 
such as bomb threats, natural disasters, hazardous spills and 
interstate traffic accidents.
    The two major at-grade crossings on Acoma Pueblo lands are 6.7 
miles apart. When one at-grade crossing is closed due to railway 
traffic stoppage or railway incident, our emergency responders must 
travel an additional 13 miles or greater which increases response time 
to 28 minutes or greater--this is unacceptable! The construction of the 
proposed bridge is needed because it will be located in a centralized 
location between the two major at-grade crossings thereby reducing 
significant time to respond to emergencies.
    Third, worker traffic is over 810 people per day coming to work at 
Acoma Pueblo tribal government, schools, hospital and businesses. There 
are several hundreds of workers that drive to off-reservation work 
sites. For example, workers travel to Albuquerque, Laguna Pueblo, 
Cubero, Grants, Gallup and areas in between. School children are bused 
to nearby off-reservation towns at Grants, Laguna Pueblo, San Fidel and 
Cubero. Community residents also travel to post-secondary schools at 
Albuquerque and Grants. Emergency responders will reach accidents in 
less time with no train delays. Visitors, tourists and all travelers 
will be reached in an efficient manner when accidents occur on or near 
tribal lands including access to the local hospital.
    In 2013, Acoma Pueblo submitted our written comments and 
recommendations to the New Mexico Department of Transportation (NMDOT) 
in regards to the New Mexico Railway Plan. Our comments focused on 
railway safety concerns including the need for the Mesa Hill Bridge and 
Road Extension Project. Additional comments included establishing quiet 
zones, railway right-of-way maintenance and fencing, and eliminating 
vibration damage to historical buildings.
                                 ______
                                 
                         Prepared Statement of:

     Hon. W. Ron Allen, Chairman, Self-Governance Communication and 
Education Tribal Consortium
    Hon. Melanie Bahnke, President, Kawerak, Inc.
    Hon. Michael Baines, Tribal Chairman, Sitka Tribe of Alaska
    Hon. Linda Capps, Vice Chairman, Citizen Potawatomi Nation
    Hon. Bill Follis, Chief, Modoc Tribe of Oklahoma
    Hon. Norman Hildebrand, Jr., Second Chief, Wyandotte Nation of 
Oklahoma
    Hon. George Thurman, Principal Chief, Sac and Fox Nation

    The Self-Governance Tribes listed above want to thank you for 
holding the important Senate Committee on Indian Affairs' hearing, 
``Tribal Transportation: Pathways to Safer Roads in Indian Country,'' 
and to share our comments for the Committee hearing record. We are 
tribes who have assumed responsibility to administer and deliver 
federal programs and services to our members under the Self-Governance 
titles of the Indian Self-Determination and Education Assistance Act 
(ISDEAA).
    We strongly agree with your opening statements and the witness 
testimony from the April 22, 2015, hearing that emphasized that safe 
and adequate roads and highways are critical to public safety, health, 
education, and commerce. On a daily basis, our tribal members and our 
communities experience the unacceptable road conditions that have made 
vehicle crashes the leading cause of death for Native American children 
and youth. We urge your leadership in working with us to make our roads 
a safer and more reliable component of the infrastructure network that 
will enable our communities to thrive.
    We also express our strong support for the testimony of Santa Clara 
Pueblo Governor Michael Chavarria who urged Congress to fully extend 
the ISDEAA to the United States Department of Transportation (DOT). Our 
experiences demonstrate the effectiveness of the ISDEAA in promoting 
tribal self-determination and show that federal dollars have the 
greatest impact and efficiency when administered at the local level by 
the Tribes themselves. Accordingly, we fully support Governor 
Chavarria's request that the Committee and its members introduce and 
pass companion legislation to the Tribal Transportation Self-Governance 
Act of 2015, sponsored by Representatives DeFazio and Young in the 
House as H.R. 1068.
    The language in H.R. 1068 has been endorsed by the National 
Congress of American Indians and the Intertribal Transportation 
Association. Its terms are also incorporated as a component of the 
tribal reauthorization proposal known as the ``Tribal Transportation 
Unity Act.'' The terms of H.R. 1068 have also enjoyed bipartisan 
support in the Congress. In 2012, the identical provisions were 
included as Section 1506 of H.R. 7, which was passed out of the House 
Transportation and Infrastructure Committee (but which was not acted 
upon by the full Congress).
    Passage of the Tribal Transportation Self-Governance Act of 2015 
would create in DOT a Tribal Self-Governance Program approximating 
Title V of ISDEAA, which applies to the Department of Health and Human 
Services. This would mean that tribes would be able to obtain all of 
their transportation funds (including not only their Tribal 
Transportation Program (TTP) funds, but also transit, Federal-aid and 
other DOT funds) under a DOT self-governance agreement. By authorizing 
Tribes to elect to use these ISDEAA funding agreements for all their 
transportation funds (and requiring DOT to respect that election), 
Congress would enable tribes to streamline administrative procedures 
associated with the various DOT programs and would facilitate a faster 
project delivery timeline. Getting safe and reliable transportation 
infrastructure on the ground and into operation faster and more cost 
effectively are objectives we all support.
    Our experience with Self-Governance stands as strong testament to 
the expectation that by extending Self-Governance to DOT and placing 
more authority at the local tribal level, tribes will be best 
positioned to meet the safety and transportation infrastructure needs 
of our communities, our commerce and of the traveling public.
    Thank you for your consideration.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 
                                 
                                  <all>
</pre></body></html>
